<html>
<title> - POWER OUTAGE ON METRO-NORTH'S NEW HAVEN LINE: HOW TO PREVENT FUTURE FAILURES ALONG PASSENGER RAIL'S BUSIEST CORRIDOR</title>
<body><pre>[Senate Hearing 113-209]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-209

  POWER OUTAGE ON METRO-NORTH'S NEW HAVEN LINE: HOW TO PREVENT FUTURE 
            FAILURES ALONG PASSENGER RAIL'S BUSIEST CORRIDOR

=======================================================================

                             FIELD HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE

87-089 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
MARTIN HEINRICH, New Mexico          RON JOHNSON, Wisconsin
EDWARD MARKEY, Massachusetts         JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

MARK WARNER, Virginia, Chairman      ROY BLUNT, Missouri, Ranking 
BARBARA BOXER, California                Member
MARIA CANTWELL, Washington           ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
                                     RON JOHNSON, Wisconsin





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 28, 2013.................................     1
Statement of Senator Blumenthal..................................     1

                               Witnesses

Jim Himes, U.S. Representative, Fourth Congressional District, 
  Connecticut....................................................     3
Elizabeth Esty, U.S. Representative, Fifth Congressional 
  District, Connecticut..........................................     5
Howard Permut, President, MTA Metro-North Railroad...............     7
    Prepared statement...........................................     9
Craig Ivey, President, Consolidated Edison Company of New York...    10
    Prepared statement...........................................    12
James P. Redeker, Commissioner, Connecticut Department of 
  Transportation.................................................    13
    Prepared statement...........................................    16
Otto Lynch, P.E., Fellow, Structural Engineering Institute, 
  American Society of Civil Engineers............................    18
    Prepared statement...........................................    20
Hon. Christopher Murphy, U.S. Senator from Connecticut...........    48
John Hartwell, Member, Connecticut Commuter Rail Council.........    54
    Prepared statement...........................................    56
Joseph H. Boardman, President and Chief Executive Officer, Amtrak    59
    Prepared statement...........................................    60
Joseph McGee, Vice President, The Business Council of Fairfield 
  County.........................................................    62
    Prepared statement...........................................    64

                                Appendix

Letter dated October 25, 2013 to Senator Jay Rockefeller from 
  Robert A. Mezzo, Mayor, Bourough of Naugatuck..................    73
Letter dated October 25, 2013 to Senator Jay Rockefeller from 
  Neil M. O'Leary, Mayor, The City of Waterbury..................    74
Letter dated October 25, 2013 to Senator Jay Rockefeller from 
  Samuel S. Gold, AICP, Acting Executive Director, Council of 
  Governments, Central Naugatuck Valley..........................    75
Response to written questions submitted to Howard Permut by:
    Hon. Richard Blumenthal......................................    75
    Hon. Christopher Murphy......................................    76
Response to written questions submitted by Hon. Richard 
  Blumenthal to Craig Ivey.......................................    77

 
                   POWER OUTAGE ON METRO-NORTH'S NEW
                   HAVEN LINE: HOW TO PREVENT FUTURE
            FAILURES ALONG PASSENGER RAIL'S BUSIEST CORRIDOR

                              ----------                              


                        MONDAY, OCTOBER 28, 2013

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety, and Security,  
        Committee on Commerce, Science, and Transportation,
                                                    Bridgeport, CT.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
Bridgeport City Council Chambers, Bridgeport City Hall, Hon. 
Richard Blumenthal, presiding.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. I am very pleased to call to order this 
field hearing of the United States Committee on Commerce, 
Science, and Transportation, a field hearing that I would like 
to thank Senator Rockefeller, our Chairman, for permitting us 
to hold here in Bridgeport, Connecticut. I thank him and the 
staff of the Commerce Committee for their excellent planning 
and to Jeff Long of my staff, and I thank the City of 
Bridgeport for hosting us here this morning.
    This hearing is really prompted by the breakdown in service 
that occurred on September 25, barely more than a month ago, in 
the Mount Vernon area. But it is really the result of much 
broader and deeper problems that have manifested themselves 
over many years and that are the subject of complaints to me, 
repeated complaints to me and I suspect to many of my 
colleagues and elected officials who are here this morning, and 
I thank them very much for being here.
    Let me just take one comment from a Westport commuter who 
wrote to me, quote, ``Enough is enough. The outage due to the 
electrical problem obviously is a major failure, one for which 
the cause should be determined and the appropriate people held 
responsible.'' But the fact is that this is only the latest 
manifestation of the serious service deterioration that Metro-
North riders have been putting up with for some time.
    When I'm asked why we are having this hearing, I think that 
letter from a Westport commuter sums it up as well as anything 
I can say. The fact of the matter is that I was dismayed and 
frustrated and outraged as much as that commuter and others by 
the 12-day service disruption caused by Con Ed's failure to 
carry out its work and prepare adequately for the possibility 
of a large-scale power outage.
    We're here today as part of a continuing fact finding and 
investigation that I intend to carry on beyond this hearing, 
because it has larger implications for service not only in the 
Northeast, but throughout the country. The fact of the matter 
is that this outage and disruption in service was due either to 
inadequate management or insufficient funding in necessary 
equipment, infrastructure, and other essentials, or both.
    The failure to plan for this kind of contingency and 
provide backup sources of power was a failing that we cannot 
permit to be repeated. It simply cannot recur. So the goal 
today is not only to hold accountable whoever was responsible, 
but also to make sure that it's prevented in the future.
    This hearing will focus closely on Con Edison and the 
particular equipment that was permitted to last beyond its 
normal design life, specifically the feeder cable that was 36 
years old, 6 years over its recommended use. But it will also 
focus on Metro-North and others who could and should have 
planned for the contingency that occurred to avoid this 
disruption.
    My hope is that there will be lessons learned, enabling us 
to avoid this kind of occurrence in the future. I'll be 
interested to learn whether Federal regulations should be 
strengthened, regulations of the Federal Railway 
Administration. The May 17 derailment which preceded this 
breakdown in service and caused disruption on the same line 
involved requirements for electrical maintenance and other 
kinds of maintenance that perhaps were involved here as well. 
We're going to be exploring whether Metro-North and similar 
railroads should be required to have backup sources as a matter 
of the Federal Railway Administration's requirements.
    One point is very clear, and that is that Con Ed should be 
reimbursing Metro-North, Amtrak, and others for all the costs 
that occurred in this service outage--$2 million a day is 
estimated to have been the cost for Metro-North, $62 million in 
costs to Connecticut's economy, and other costs incurred by 
riders and commuters. So that kind of reimbursement ought to be 
a given.
    Another question is whether Amtrak should be doing more. 
Its contribution over the last 10 years of $64 million to 
upgrade and improve equipment compared to the $3.2 billion 
invested in that infrastructure raises the question about 
whether it should be expected to shoulder a fair share.
    And perhaps most immediately, and the reason that we have 
Commissioner Redeker here, is that there are other substations 
along the line in Connecticut, three more now, two more 
planned, where the same points of vulnerability may exist. 
Those substations are serviced by CL&P and Northeast Utilities 
as well as United Illuminating, and we'll want to know at this 
hearing or in fact finding to be pursued, whether more has to 
be done to make sure that those lines are secure, reliable, and 
safe.
    Finally, I'm concerned about reports that Con Edison is 
understaffed, that the failure to ensure adequate staffing 
means that an important operation, maintenance activities, are 
not done properly. We know, for example, in the last four years 
that Con Edison has cut nearly 17 percent of its full time work 
force, even though the company recently testified at the New 
York State Public Service Commission hearing that its loads 
have grown.
    At my and Senator Schumer's request, the New York Public 
Service Commission is conducting its own investigation. We will 
eagerly await the results of that investigation and also the 
investigation, apparently, that Con Ed is doing on its own. I'm 
disappointed that Con Ed so far has not provided the 
preliminary review that's mentioned in a September 30 New York 
Times article. If that review is available, I ask that it be 
provided to the Committee.
    I hope that we can anticipate the continued cooperation of 
both Con Ed and Metro-North, as well as others who are 
represented here today. And I want to thank them for being here 
today to give us the benefit of what they have found so far.
    Our first panel is composed of two of our elected 
representatives, two Members of Congress, who represent the 
individuals who are affected most immediately, United States 
Congressman Jim Himes and United States Congresswoman Elizabeth 
Esty.
    Thank you so much for being here today. Please proceed.

      STATEMENT OF JIM HIMES, U.S. REPRESENTATIVE, FOURTH 
              CONGRESSIONAL DISTRICT, CONNECTICUT

    Mr. Himes. Good morning, Senator Blumenthal, and thank you 
very much for holding this hearing here in Bridgeport. I'm 
delighted to be joined by my colleague, Elizabeth Esty, a 
member of the Transportation and Infrastructure Committee of 
the U.S. House of Representatives, as well as by any number of 
state-elected officials, municipal officials, and, of course, 
representatives of Metro-North and Con Edison.
    I'm happy you're holding this hearing, because this is the 
second time in 6 months that my constituents in the Fourth 
District of Connecticut and your constituents, Senator, have 
had both their safety and their economic well-being put at risk 
by crumbling infrastructure. You and I visited the scene of a 
very dangerous accident just two miles up the road here, where, 
thank God, there was no loss of life. But it could have, as we 
acknowledged at the time, been much worse.
    One month after the outage that inconvenienced and did 
economic damage to many of our constituents, we reflect on what 
went wrong and how the problem was handled. It is important 
that we achieve total clarity regarding what occurred and how 
it can be avoided in the future.
    It is also clear we must re-review plans for redundant 
power during maintenance projects. We owe it to the 125,000 
travelers who ride Metro-North every day to do our best to 
ensure these kinds of prolonged outages do not occur again in 
the future.
    Just as important as accountability is understanding that 
this outage underscores the urgent need to invest in our aging 
transportation energy and infrastructure. Talk to any one of 
the business groups in this area, and they will tell you that 
one of the--perhaps the main reason why businesses find it 
difficult to move into the area is the aging infrastructure, 
the difficulty of moving employees around and getting them to 
their places of work. This is something that is essential 
economically for Fairfield County and, frankly, for Connecticut 
as a whole.
    Between last year's power outages that left passengers in 
sweltering heat, this year's train derailment caused by 
unstable rails and loose embankments, and now this wide scale 
power outage, it is clear that there is more we can and must do 
to bring our national infrastructure into the 21st century. 
According to Transportation for America, today, in 
Connecticut's Fourth District, over 40 percent of our highway 
and roadway bridges are either structurally deficient or 
functionally obsolete and in dire need of repair.
    This represents, like all that we've talked about in the 
rail world, both an unacceptable lack of transportation 
efficiency and a dangerous public safety concern. It is clear 
that we need to commit long-term Federal, state, municipal, and 
private sector funding to infrastructure improvement.
    Infrastructural neglect compromises our safety. Nearly 45 
percent of the 34,000 annual U.S. highway fatalities occur in 
crashes where substandard road conditions, obsolete designs, or 
roadside hazards were a factor. The train derailment on the 
Bridgeport-Fairfield border this spring is just the latest 
reminder of the very real danger of failing to invest in our 
transportation infrastructure.
    As a father and a husband, I worry about the safety of my 
family on Connecticut's highways and railroads. And, of course, 
I worry about the safety of each and every one of my 
constituents. As a representative of the citizens of the Fourth 
District of Connecticut, I will do everything I can to prevent 
future accidents caused by inadequate infrastructure.
    There's a lot of work we need to do. But I remain 
optimistic that we can get the job done. With so much at stake, 
with safety and with jobs and with the economic vitality of 
this region at stake, we simply cannot afford not to make these 
crucial investments in our outdated infrastructure. In the 
weeks and months ahead, as we continue investigating the recent 
power outage, I hope we can begin a long needed discussion on 
making a down payment for our safety and in Connecticut's 
economic vibrancy by investing in transportation and energy 
infrastructure that is in dire need of repair.
    This process, of course, will be to some degree about 
accountability, and it's important that we understand what 
happened and who was responsible for avoiding what happened. 
But at the end of the day, our infrastructure is in the 
position that it is in because all of us, from the Federal to 
the state to the municipal to the private sector, have not been 
adequate stewards of this essential life blood of our economy.
    So I look forward to working with Metro-North, Amtrak, Con 
Edison, with you, Senator, and with my colleagues at the 
Federal, state, and municipal level to make sure that we have a 
region that is economically vibrant and safe for our 
constituents in the 21st Century. Thank you.
    Senator Blumenthal. Thank you, Congressman Himes.
    Congresswoman Esty?

    STATEMENT OF ELIZABETH ESTY, U.S. REPRESENTATIVE, FIFTH 
              CONGRESSIONAL DISTRICT, CONNECTICUT

    Ms. Esty. Thank you, Senator Blumenthal, for chairing this 
hearing here today. And I want to thank and acknowledge Senator 
Murphy, who I know will be joining us, Representative Himes and 
all of our colleagues in the Connecticut delegation, and all 
the state and local officials who are here today for our 
continued collaboration and work on this matter on behalf of 
the citizens of Connecticut.
    I appreciate the opportunity to testify today on the power 
outage along Metro-North's New Haven Line. As Representative 
Himes underscored, and you did, yourself, Senator, the 
disruption around the New Haven Line is unacceptable and an 
avoidable failure that caused significant damage both to our 
state's economy and to people's lives.
    The analysis conducted by the Connecticut Department of 
Economic and Community Development estimates the incident cost 
the Connecticut economy $62 million and reduced state revenues 
by $2 million and, beyond that, interrupted lives of 
approximately 62,500 Metro-North commuters over the eight work 
days that work was suspended. Many of these people depend on 
reliable rail service for their livelihoods. In this day and 
age, it is simply inexcusable for the loss of one feeder cable 
to an electrical substation to impose such a costly burden on 
our state and on its residents.
    As a member of the House Transportation and Infrastructure 
Committee and especially as a member of the Rail Subcommittee, 
I've called on my colleagues in the House to hold similar 
hearings, because it is a matter of critical importance both 
for our state and for our country. When our transportation 
infrastructure fails, negative consequences cascade across 
state boundaries.
    In this case, the service disruption on Metro-North also 
harmed Amtrak customers and disrupted travel for customers all 
along the entire Northeast Corridor. The failure of the Con 
Edison electrical line shows how one vulnerable piece of 
infrastructure can threaten service reliability on a massive 
scale across our state and beyond. That's why this hearing is 
so important and why I will continue to urge the House 
Subcommittee on Railroad to hold its own hearing.
    This concern is especially timely because my committee will 
soon be addressing legislation reauthorizing Amtrak, and that 
deliberation must be informed by a clear understanding of 
Amtrak's infrastructure needs. The only way we can prevent 
service failures like this one from happening again is to 
understand what caused them in the first place. Only then will 
we be able to make the necessary investments and policy changes 
to ensure reliable service both for commuters in Connecticut 
and for the growing ranks of rail passengers nationwide.
    To that end, I'd like to make three broad points. First, 
the investments ahead for Amtrak, especially along the 
Northeast Corridor, are going to be significant. I'm sure Mr. 
Boardman and Commissioner Redeker will cover this in greater 
detail. But just consider the following facts.
    In 2012, Amtrak's total traction power consumed almost 940 
million kilowatt hours at a cost of $92 million. The 25 Hz 
network powering service from New York to Washington, D.C., was 
installed between 1910 and 1938. This equipment is long overdue 
and in need of replacement.
    Amtrak's state of good repair program identifies equipment 
that will directly affect train delays in the event of a 
failure and either rehabilitates or replaces that equipment 
first. Still, it will take continued and significant investment 
to get the energy substations along that route to a state of 
good repair.
    Second, I believe passenger rail is a good investment, and 
that continuing to improve Amtrak's service on the Northeast 
Corridor will bear enormous positive returns over time. 
Ridership is at an all-time high, with 46 percent growth along 
the Northeast Corridor since 1998. Amtrak's operating profit 
along the Northeast Corridor was $308 million last year. On-
time performance is improving, and Amtrak is the least energy 
intensive mode of travel when measured in terms of BTU per 
passenger mile.
    Third, Congress must also evaluate the service providers on 
whom Amtrak and Metro-North rely. Amtrak and Metro-North cannot 
provide reliable service to commuters unless partners like Con 
Edison are also reliable. Metro-North didn't damage the 
electrical cables in question, and it wasn't a lack of Federal 
investment that caused Mount Vernon substation to fail. That's 
why we need to consider the roles and responsibilities of 
utilities like Con Edison to prevent these kinds of failures.
    There are troubling indications of woefully insufficient 
standards and practices that exposed our transportation system 
and our constituents to unacceptable risk. Senator, as you have 
already referenced, in the last four years, Con Edison has cut 
nearly 17 percent of its full time workforce, even though loads 
have increased.
    It's my understanding that in the wake of Superstorm Sandy, 
reports were filed with Governor Cuomo's Moreland Commission 
that expressed concerns regarding insufficient staffing levels. 
These concerns were reflected in the Moreland Commission's 
final report which recommended that, quote, ``Utilities should 
review existing staffing levels and evaluate the impacts of an 
aging workforce on their ability to respond to a major event.''
    It would be inexcusable if, after the findings of the 
Moreland Commission, low staff levels either contributed to the 
New Haven Line outage or hindered Con Edison's ability to 
respond. I hope Mr. Ivey addresses these concerns.
    This outage should never have happened. We owe it to our 
constituents to get to the bottom of what happened. And we owe 
it to our country to have the kind of 21st Century 
transportation system in which this will not happen again.
    Thank you, Senator Blumenthal, for inviting us here to 
testify, and I look forward to hearing from the other 
witnesses.
    Senator Blumenthal. Thank you both. Thank you for being 
here today. Thank you for your leadership, and I know that you 
are very directly concerned and involved in these issues. I 
really thank you for your very thoughtful and insightful 
testimony here today. Thank you very much.
    I know that you have other engagements, and you'll have to 
leave before the conclusion of the hearing. But you being here 
is very, very important. Thank you very much to both of you.
    Our next panel will consist of Howard Permut, President of 
MTA Metro-North Railroad; Craig Ivey, President of Consolidated 
Edison; James Redeker, Commissioner of the Connecticut 
Department of Transportation; and Otto Lynch, a Fellow of the 
Structural Engineering Institute of the American Society of 
Civil Engineers. My thanks to each of you for being here today. 
I'm going to dispense with an elaborate lengthy introduction of 
each of you because I think you're well known to me and other 
members of the Committee.
    Perhaps we can begin with you, Mr. Permut.

            STATEMENT OF HOWARD PERMUT, PRESIDENT, 
                    MTA METRO-NORTH RAILROAD

    Mr. Permut. Good morning Senator Blumenthal and members of 
the Senate Committee on Commerce, Science, and Transportation. 
My name is Howard Permut, President of Metro-North Railroad, 
and I thank you for holding this critically important hearing 
today. I would also like to thank Congressman Himes and 
Congresswoman Esty for speaking here this morning. As the 
elected representatives of our customers who travel on the New 
Haven Line in the state of Connecticut, I value their input and 
perspective.
    Between September 25 and October 7, service on Metro-
North's New Haven Line was severely curtailed when the only in-
service electric feeder cable that was providing power to a 
critical eight-mile section of the line failed. For those 12 
days, the Nation's busiest commuter railroad corridor was cut 
in two, crippling both the New Haven Line and Amtrak's 
Northeast Corridor service and resulting in very limited and, 
at times, difficult transportation options for these customers.
    The electric feeder that failed is one of two feeder cables 
that connect to a Metro-North substation in Mount Vernon. That 
substation then converts the electricity it receives from Con 
Edison's system to a voltage that can be used for the 
railroad's traction power needs. On September 25, one feeder 
was already offline to advance work to modernize and expand the 
capability of that substation.
    Prior to taking the feeder offline, Metro-North and Con Ed 
had many discussions of how to best accomplish the work. We 
assessed the risk of only having one feeder in service. Part of 
that assessment included prior history of performance and 
preparation.
    In 2006, Metro-North reconfigured this same substation to 
enable one feeder to be taken out of service while continuing 
to provide sufficient traction power from the remaining single 
feeder so that Con Ed could do work elsewhere on its system. 
After Metro-North's reconfiguration was completed, we were able 
to operate without any problem on one feeder for a total of 38 
days while Con Ed performed their work. We also operated on one 
feeder during this past summer, a good test of performance, 
giving us more confidence in our ability to provide service.
    Nevertheless, on September 25, something went wrong in the 
freeze pit where work was being done by Con Ed, and the 
railroad's service plan was insufficient to meet our customers' 
needs. Craig Ivey and I both agree that our companies will 
redouble efforts to ensure that we are better prepared in the 
future.
    As soon as the power failure occurred, the employees of 
both companies sprang into action. At Metro-North, our goal was 
to provide as much service as possible as soon as possible. Con 
Ed began working on providing an alternate power source.
    The truth is that there is no alternative transportation 
service that can carry 132,000 daily customers. Initially, 
through a combination of diesel trains and buses, we could 
provide 33 percent of a regular New Haven Line schedule. Con 
Edison was able to reengineer, secure, and install a temporary 
power source, allowing us to operate a limited number of 
electric trains.
    With that assistance, we were able to increase the number 
of trains to approximately 50 percent to 60 percent of a full 
schedule. In addition, our partners at the state and local 
level, as well as our colleagues at New York City Transit, 
helped us create a robust park-and-ride program, with a total 
of 8,600 free park-and-ride spaces at four sites in the Bronx 
and Westchester County. We also added rail cars on the Hudson 
and Harlem trains during this disruption.
    Ultimately, these options provided service alternatives for 
approximately 70 percent of our customers. Throughout the 
disruption, we worked constantly to communicate with our 
customers through the use of our website, e-mail alerts, 
station and train announcements, social media, press releases 
and press conferences. Customer service representatives were on 
hand to provide assistance on the phone and in person at 
stations.
    After Con Edison completed their work on the new feeder 
line, our service was finally restored on Monday, October 7. 
Restoring the service was nothing short of a herculean effort 
by everyone involved at both Metro-North and Con Ed. I want to 
personally thank these men and women, all of whom worked 
tirelessly in performing such a monumental task in trying to 
deliver service to our customers during this difficult period.
    We recognize the hardship that this event caused our 
customers, and because of the unparalleled magnitude and 
duration of this disruption, the MTA Board authorized Metro-
North to credit a future ticket purchase for New Haven Line 
customers holding monthly or weekly tickets valid for travel 
during this period. This credit can be applied between now and 
March 31. Mail and Ride customers will have the credit 
automatically deducted from the price of their December monthly 
ticket.
    Con Edison is conducting an investigation into what caused 
the feeder to fail. In addition, the New York State Department 
of Public Service is conducting an independent analysis of what 
happened, what went into planning the work and both Metro-
North's and Con Ed's response. Metro-North will participate 
fully in this analysis.
    But the reality is that power supply is only one area of 
the New Haven Line infrastructure that requires attention. For 
example, there are four moveable bridges in the state of 
Connecticut, all of which are more than a century old, that 
need replacement. And while our maintenance forces work hard to 
keep them safe for train operation and functioning as a movable 
bridge, they must be replaced in the coming years. If not, we 
could be facing a disruption just as significant as the one we 
just experienced for a far longer period of time.
    Governor Cuomo has recognized the need to invest in 
transportation. As a result, New York State has provided $4.8 
billion in direct funding to all public transportation in the 
state, with $4.3 billion going to support the services provided 
by the MTA. This is more than 46 other states combined. In the 
last 10 years, the State of Connecticut has also invested $3.2 
billion in the New Haven Line infrastructure and rolling stock.
    Yet despite this level of self-help, the fact is that 
Federal investment in mass transit and Amtrak is simply 
insufficient to address our current state of good repair needs, 
let alone to build redundancy and contingency. This critical 
underfunding of our public works and infrastructure has to 
change. We look forward to working with you to increase the 
investment necessary for maintaining the rail infrastructure in 
a state of good repair.
    I appreciate the opportunity to appear before you today, 
and I welcome any questions you have.
    [The prepared statement of Mr. Permut follows:]

            Prepared Statement of Howard Permut, President, 
                        MTA Metro-North Railroad
    Good morning Senator Blumenthal, Senator Murphy and members of the 
Senate Committee on Commerce, Science, and Transportation. My name is 
Howard Permut, President of Metro-North Railroad and I thank you for 
holding this critically important hearing. I would also like to thank 
Congressman Himes and Congresswoman Esty for speaking here this 
morning. As the elected representatives of our customers who travel on 
the New Haven Line in the state of Connecticut, I value their input and 
perspective.
    Between September 25 and October 6, service on Metro-North's New 
Haven Line was severely curtailed when the only in-service electric 
feeder cable that was providing power to a critical 8-mile section of 
the line failed. For those 11 days, the Nation's busiest commuter 
railroad corridor was cut in two, crippling both the New Haven Line and 
Amtrak's Northeast Corridor service and resulting in very limited and, 
at times difficult, transportation options for these customers.
    The electric feeder that failed is one of two feeder cables that 
connect to a Metro-North substation in Mount Vernon. That substation 
then converts the electricity it receives through Con Ed's system to a 
voltage that can be used for the railroad's traction power needs. On 
September 25, one feeder was already off-line to advance work to 
modernize and expand the capability of that substation.
    Prior to taking the feeder off-line, Metro-North and Con Ed had 
many discussions of how to best accomplish the work. We assessed the 
risk of only having one feeder in service. Part of that assessment 
included prior history of performance and preparation. In 2006, Metro-
North reconfigured this same substation to enable one feeder to be 
taken out of service while continuing to provide sufficient traction 
power from the remaining single feeder so that Con Ed could do work 
elsewhere on its system. After Metro-North's reconfiguration was 
completed, we were able to operate without any problem on one feeder 
for a total of 38 days while Con Ed performed their work. We also 
operated on one feeder during this past summer--a good test of 
performance, giving us even more confidence in our ability to provide 
service.
    Nevertheless, on September 25, something went wrong in the ``freeze 
pit'' where work was being done by Con Ed and the railroad's service 
plan was insufficient to meet our customers' needs. Craig Ivey and I 
both agree that our companies will redouble efforts to ensure that we 
are better prepared in the future.
    As soon as the power failure occurred, the employees of both 
companies sprang into action. At Metro-North, our goal was to provide 
as much service as possible as soon as possible. Con Ed began working 
on providing an alternate power source.
    The truth is there is no alternative transportation service that 
can carry 132,000 daily customers. Initially, through a combination of 
diesel trains and buses, we could only provide 33 percent of a regular 
New Haven Line schedule. Con Ed was able to re-engineer, secure and 
install a temporary power source, allowing us to operate a limited 
number of electric trains. With that assistance, we were able to 
increase the number of trains to approximately 50 to 60 percent of a 
full schedule. In addition, our partners on the state and local level, 
as well as our colleagues at New York City Transit, helped us create a 
robust park-and-ride program--with a total of 8,600 free park-and-ride 
spaces at 4 sites in the Bronx and Westchester County. We also added 
rail cars on Hudson and Harlem Line trains during this disruption. 
Ultimately, all these options provided service alternatives for 
approximately 70 percent of our customers.
    Throughout the service disruption, we worked constantly to 
communicate with our customers through the use of our website, e-mail 
alerts, station and train announcements, social media, press releases 
and press conferences. Customer service representatives were on hand to 
provide assistance on the phone and in person at stations.
    After Con Edison completed their work on the new feeder line, our 
service was finally restored on Monday, October 7. Restoring the 
service was nothing short of a herculean effort by everyone involved at 
both Metro-North and Con Ed. I want to personally thank these men and 
women, all of whom worked tirelessly in performing such a monumental 
task in trying to deliver service to our customers during this 
difficult period.
    We recognize the hardship that this event caused our customers and, 
because of the unparalleled magnitude and duration of this disruption, 
the MTA Board authorized Metro-North to credit a future ticket purchase 
for New Haven Line customers holding monthly or weekly tickets valid 
for travel during this period. This credit can be applied between now 
and March 31. Mail&Ride customers will have the credit automatically 
deducted from the price of their December monthly ticket.
    Con Edison is conducting an investigation into what caused the 
feeder to fail. In addition, the New York State Department of Public 
Service is conducting an independent analysis of what happened, what 
went into planning the work and both Metro-North's and Con Ed's 
response. Metro-North will participate fully in this analysis.
    But the reality is that power supply is only one area of the New 
Haven Line infrastructure that requires attention. For example, there 
are four moveable bridges in the state of Connecticut--all of which are 
more than a century old--that need replacement. And while our 
maintenance forces work hard to keep them safe for train operation and 
functioning as a movable bridge, they must be replaced in the coming 
years. If not, we could be facing a disruption just as significant as 
the one we just experienced for a far longer period of time.
    Governor Cuomo has recognized the need to invest in transportation. 
As a result, New York State has provided $4.8 billion in direct funding 
to all public transportation in the state, with $4.3 billion going to 
support the services provided by the MTA. This is more than 46 other 
states--combined.
    In the last 10 years, the State of Connecticut has also invested 
$3.2 billion in the New Haven Line infrastructure and rolling stock.
    Yet despite this level of self-help, the fact is that Federal 
investment in mass transit and Amtrak is simply insufficient to address 
our current state of good repair needs--let alone to build redundancy 
and contingency. This critical underfunding of our public works and 
infrastructure has to change. We look forward to working with you to 
increase the investment necessary for maintaining the rail 
infrastructure in a state of good repair.
    I appreciate the opportunity to appear before you today and I 
welcome any questions you have.

    Senator Blumenthal. Thank you, Mr. Permut.
    Mr. Ivey?

STATEMENT OF CRAIG IVEY, PRESIDENT, CONSOLIDATED EDISON COMPANY 
                          OF NEW YORK

    Mr. Ivey. Good Morning, Senator Blumenthal. My name is 
Craig Ivey, and I am the President of Con Edison of New York, 
the utility which provides electric, gas, and steam to the City 
of New York and parts of Westchester County. I want to thank 
you for the opportunity to participate in this morning's 
hearing. I would also like to recognize Senator Murphy, 
Congressman Himes, and Congresswoman Esty for their ongoing 
engagement in this issue.
    Before I begin, I want to express on behalf of Con Edison 
that we clearly recognize the hardships endured by Metro-
North's commuters during the train service interruption and 
regret the set of circumstances that led to the disruption. And 
I want to make clear to this panel, as well as to Metro-North 
riders, that we are committed to doing everything within our 
role to support the MTA to prevent anything like this from 
happening again, particularly as the agency's substation 
project moves forward.
    I also want to commend our employees and Metro-North 
employees, who reacted so quickly and professionally in this 
emergency to restore partial service, and then full service, to 
the New Haven line.
    On September 13, 2013, one of the two Con Edison 
transmission lines, or feeders, serving the Metro-North New 
Haven Corridor was taken out of service at Metro-North's 
request to accommodate work they were conducting at their Mount 
Vernon substation. To clarify, this is Metro-North's 
substation, not Con Edison's substation. The feeder was 
scheduled to be out of service from September 13, 2013, until 
October 13 so that the line could be repositioned and 
reconnected to their new equipment in Mount Vernon.
    On Wednesday, September 25, at 5:22 a.m., the remaining in-
service feeder cable failed and caused a total loss of power 
supply to Metro-North's Mount Vernon substation. A preliminary 
review indicates that the feeder fault was related to our work 
on the scheduled feeder shutdown. I will go into greater detail 
shortly.
    Within a few days of the feeder failure, Con Edison 
successfully erected a temporary substation at the Harrison 
station to provide enough power to allow for the partial 
restoration of Metro-North service on September 30. This was an 
innovative, unconventional, and ultimately successful effort to 
transform low voltage, residential 13,000 volt power into 
higher voltage, 27,000 volt power, for the train line.
    On October 3, we were able to reconnect and reenergize the 
138,000 feeder that had been removed from service at Metro-
North's request 10 days sooner than scheduled. This 
reconnection allowed Metro-North to return to its regular 
commuter schedule on Monday, October 7. Our crews worked around 
the clock to expedite repairs to the failed feeder, which was 
reenergized on October 19, returning the Metro-North supply to 
its normal configuration of two transmission feeders.
    We are conducting a thorough review of the cause of the 
feeder failure to understand how this incident occurred and 
prevent it from happening again. The New York Public Service 
Commission is also conducting its own independent review.
    High-voltage transmission feeders are housed in oil-filled 
pipes. As a result, removing these feeders from service is a 
complex process. We have to freeze the insulating oil in the 
pipe within a freeze pit in order to contain the oil.
    We located the fault on the failed feeder just outside of 
the freeze pit work area. We found that the ground surrounding 
the work area was frozen, which we believe contributed to the 
failure.
    Having completed these freeze operations for decades, 
approximately 20 times a year, we have no records of a 
condition of this nature developing at any other time. Our 
investigation will include a forensic analysis of the cable, 
the pipe, and the surrounding work area to help pinpoint the 
cause.
    It is important to note that Con Edison continuously 
assesses the condition of its underground feeder cables with 
respect to possible degradation due to aging. Over the past 
several years, several sample sections of cable similar in 
construction to those supplying the Metro-North Railroad have 
been subjected to in-depth engineering evaluations. These 
evaluations and our experience with these cable systems 
indicate that the condition and performance of the cable is 
primarily a function of the thermal and electrical stresses to 
which the cable is subjected as opposed to the age of the 
cable.
    Con Edison recognizes how critical Metro-North service is 
to the New York-Connecticut area. Con Edison bears an equally 
monumental responsibility in powering our dynamic region. This 
is why we are having extensive discussions with Metro-North 
regarding their future substation replacement work and the need 
to ensure that this type of event does not happen again.
    Thank you, and I look forward to taking your questions.
    [The prepared statement of Mr. Ivey follows:]

             Prepared Statement of Craig Ivey, President, 
                Consolidated Edison Company of New York
    Good morning Senator Blumenthal. My name is Craig Ivey and I am the 
President of Con Edison of New York, the utility which serves electric, 
gas and steam to the City of New York and parts of Westchester County. 
I want to thank you for the opportunity to participate this morning's 
hearing. I would also like to recognize Senator Murphy, Congressman 
Himes and Congresswoman Esty for their ongoing engagement in this 
issue.
    Before I begin, I want to express on behalf of Con Edison that we 
clearly recognize the hardships endured by Metro-North's commuters 
during the train service interruption and regret the set of 
circumstances that led to the disruption. And I want to make clear to 
this panel, as well as to Metro-North riders, that we are committed to 
doing everything within our role to support the MTA to prevent anything 
like this from happening again, particularly as the agency's substation 
project moves forward.
    I also want to commend our employees, and Metro-North employees, 
who reacted so quickly and professionally in this emergency to restore 
partial service, and then full service, to the New Haven line.
    On September 13, 2013, one of the two Con Edison transmission 
lines, or feeders, serving the Metro-North New Haven corridor was taken 
out of service at Metro-North's request to accommodate work they were 
conducting at their Mount Vernon substation. To clarify, this is Metro-
North's substation, not Con Edison's substation. The feeder was 
scheduled to be out of service from September 13, 2013 until October 
13, at the request of Metro-North, so that the line could be 
repositioned and reconnected to their new equipment in Mount Vernon.
    On Wednesday, September 25, 2013 at 5:22 a.m. the remaining in-
service feeder cable failed and caused a total loss of power supply to 
Metro-North's Mount Vernon Substation. A preliminary review indicates 
that feeder fault was related to our work on the scheduled feeder 
shutdown. I will go into greater detail shortly. Within a few days of 
the feeder failure, Con Edison successfully erected a temporary 
substation at the Harrison station to provide enough power to allow for 
the partial restoration of Metro-North service on September 30. This 
was an innovative, unconventional and ultimately successful effort to 
transform low voltage, residential (13kV) power into higher voltage 
(27kV) power for the train line.
    On October 3, we were able to reconnect and re-energize the 138kV 
feeder that had been removed from service at Metro-North's request. 
This reconnection allowed Metro-North to return to its regular commuter 
schedule on Monday, October 7.
    Our crews worked around-the-clock to expedite repairs to the failed 
feeder, which was re-energized on October 19, returning the Metro-North 
supply to its normal configuration of two transmission feeders.
    We are conducting a thorough review of the cause of the feeder 
failure to understand how this incident occurred and prevent it from 
happening again. The New York Public Service Commission is also 
conducting its own independent review. High-voltage transmission 
feeders are housed in oil-filled pipes. As a result, removing these 
feeders from service is a complex process. We have to freeze the 
insulating oil in the pipe within a ``freeze pit'' in order to contain 
the oil.
    We located the fault on the failed feeder just outside of the 
``freeze pit'' work area. We found that the ground surrounding the work 
area was frozen, which we believe contributed to the failure. Having 
completed these freeze operations for decades--approximately 20 times a 
year--we have no records of a condition of this nature developing at 
any other time. Our investigation will include a forensic analysis of 
the cable, the pipe and surrounding work area to help pinpoint the 
cause.
    It is important to note that Con Edison continuously assesses the 
condition of its underground feeder cables with respect to possible 
degradation due to aging. Over the past several years, several sample 
sections of cable similar in construction to those supplying the Metro-
North Railroad have been subjected to in-depth engineering evaluations. 
These evaluations and our experience with these cable systems indicate 
that the condition and performance of the cable is primarily a function 
of the thermal and electrical stresses to which the cable is subjected 
as opposed to the age of the cable.
    Con Edison recognizes how critical Metro-North service is to the 
NY-CT area. Con Edison bears an equally monumental responsibility in 
powering our dynamic region. This is why we are having extensive 
discussions with the Metro-North regarding their future substation 
replacement work and the need to ensure that this type of event does 
not happen again.

    Senator Blumenthal. Thank you, Mr. Ivey.
    Commissioner Redeker?

   STATEMENT OF JAMES P. REDEKER, COMMISSIONER, CONNECTICUT 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Redeker. Good morning, Senator Blumenthal. Thank you 
for this chance to testify. I am Jim Redeker, the Commissioner 
of the Connecticut Department of Transportation, and I am also 
the current Chair of the Northeast Corridor Commission. I'm 
honored to have the opportunity to discuss the power outage on 
the Metro-North New Haven Line, the impacts it had on the 
Northeast Corridor, and the need to ensure investments in the 
infrastructure to sustain this critical transportation and 
economic driver in the region and for the entire Northeast 
Corridor.
    For over 160 years, the New Haven Line has been an 
essential transportation and economic link between Manhattan, 
the northern suburbs of New York City, and the cities in 
southwestern and central Connecticut. The New Haven Line is 
also critical to the entire Northeast Corridor, linking Boston 
to New York and Washington.
    The New Haven Line is the single busiest rail line in North 
America. Over 39 million passengers are served by Metro-North 
annually on the commuter system, and an additional 3 million 
intercity passenger trips are served by Amtrak. The ridership 
performance is record setting, indicating the attractiveness 
and importance of the New Haven Line to Connecticut, to New 
York, and the entire region.
    The State of Connecticut plays a unique role in the 
Northeast Corridor, since the state owns 46 miles of the 
Northeast Corridor infrastructure between New Haven and the New 
York border, as well as three branch lines. In total, 
Connecticut owns 235 track miles on the Northeast Corridor and 
branches.
    As the owner, Connecticut has invested significant state 
and Federal resources to upgrade the rail infrastructure, 
including track, catenary, and bridges. Connecticut has funded 
the replacement of 405 New Haven Line electric passenger 
vehicles and the construction of related maintenance facilities 
to support that fleet.
    As a result of the state's investment, progress toward a 
state of good repair has been strong. In the last 10 years, 
Connecticut has invested over $3.2 billion in the New Haven 
Line, and out of that, two-thirds or $2 billion has been funded 
by state bond funds, while the remainder is Federal Transit 
Administration rail formula or discretionary funding.
    Unfortunately, even this amount of funding is not enough to 
address the infrastructure upgrades or improvements necessary 
for the New Haven Line. And Connecticut is not alone in 
addressing the backlog of investment in infrastructure. The 
Northeast Corridor relies on over 1,000 bridges and tunnels, 
many of which were constructed a century ago and are in 
desperate need of replacement or repair.
    Key segments of the Northeast Corridor are operating at or 
near capacity, such as the Hudson River tunnels between New 
York and New Jersey, which carry 70,000 riders a day and have 
no space for additional trains during rush hour. Major 
components of the Northeast Corridor electrical and signaling 
systems date back to the 1910s, making service on the corridor 
highly susceptible to malfunctions and delay.
    Major investments in the corridor are essential to reduce 
delays, achieve a state of good repair, and build capacity for 
growth. In 2010, the Northeast Corridor infrastructure master 
plan estimated that the corridor required $2.6 billion in 
annual expenditures over 20 years, or $52 billion total, to 
achieve a state of good repair and build infrastructure capable 
of supporting passenger rail demand forecast for 2030.
    Investment levels over the past several decades have been 
critical in supporting the Northeast Corridor's enviable record 
of continuous safe operation, but have barely covered the cost 
of normalized replacement of basic components. They fall far 
short of the levels needed to address repair backlogs and meet 
future needs. The Northeast Corridor Commission is currently in 
the process of developing an updated capital investment plan 
for the corridor that will address the needs of freight, 
commuter, and intercity services.
    The New Haven Line receives power from four substations. 
The substation in Mount Vernon, New York, which experienced the 
failure on September 25 is the single point of power between 
Pelham and Harrison, New York.
    In Connecticut, there are three substations that provide 
power for the New Haven Line. These are designed so that if one 
substation is offline, the others can provide redundant power. 
In addition, Connecticut is constructing two new substations, 
one in New Haven and one in Cos Cob. With the addition of these 
two new substations, there will be additional power to support 
the expansion of service with the new M8 rail fleet and provide 
complete redundancy in Connecticut to power the New Haven Line 
if any of the substations is offline.
    These projects are scheduled to be completed by the end of 
the calendar year. They provide an example of the proactive 
strategic investments Connecticut is making to upgrade the New 
Haven Line and support future improvement and expansion of 
service for all users of the line.
    Unfortunately, on September 25, there was an unprecedented 
failure of the power supply at the substation in Mount Vernon, 
New York. The substation was undergoing a planned necessary 
upgrade, but a failure of a feeder cable left the New Haven 
Line without power in a critical section of New York. As a 
result, no Metro-North or Amtrak electric trains operated, 
leaving well over 130,000 customers without train service, and 
for 11 days, the Nation's busiest rail line was crippled.
    Impacts to New York and Connecticut customers and 
businesses had a compelling economic impact that cannot be 
simply modeled. The impact on people's livelihood and mobility 
was profound. While we don't know what caused the failure, we 
certainly know that thousands of people were without the 
critical service, and we obviously need to do everything 
possible to avoid a similar incident from occurring again. To 
that end, we await feedback from Con Edison so critical lessons 
learned might be included in all future projects.
    I want to take a moment to reflect on the efforts to 
provide service during the 11 days without Mount Vernon 
substation in service. As soon as the incident occurred, 
Connecticut DOT was in direct contact with Metro-North to 
initiate the delivery of substitute services. Recognizing there 
is no solution that can provide full capacity of the New Haven 
Line, the MTA, Metro-North, and Connecticut DOT developed and 
implemented substitute rail, bus, and park-and-ride options 
that provided the most service that could possibly be delivered 
during the repair period.
    With the ultimate addition of temporary power by Con 
Edison, substitute services ultimately were able to provide 
options for an estimated 85 percent of normal weekday New Haven 
peak ridership. The immediate response by Governor Malloy to 
urge people to find alternatives, telecommute, or stay home was 
instrumental in the ability to manage this crisis. Consistent 
and thorough updates on the progressive addition of service 
were also communicated, and, above all, customers and other 
citizens rose to deal with the crisis and deserve a great deal 
of credit as they coped through this long service impact.
    The impact that this outage had resulted in an 
unprecedented action by the MTA board of directors to authorize 
a credit to customers. The action is not something that should 
be taken lightly, but it was clearly due to a once in a 
lifetime failure that had an extraordinary impact. In fact, 
this singular action is not recommended for the ongoing 
business practices that govern the New Haven Line.
    The New Haven Line, as part of the Northeast Corridor, is a 
critical transportation and economic system. The line has seen 
and will continue to see significant investments in ongoing 
maintenance and system upgrades. Its performance as the busiest 
rail commuter line in the country is exceptional. On average, 
it delivers consistent, high-quality, reliable service that 
exceeds 95 percent on-time performance.
    The quality of the system is improving consistently with 
the rapid delivery of new rail cars, upgraded power supply and 
catenary systems, new stations, and new parking. Those 
investments have also seen the implementation of the most 
significant additional weekday and weekend services in the 
history of the line. The results are proven by the growth in 
ridership in all markets in this region and for trips along the 
Northeast Corridor.
    Thank you for your time. I'll be happy to answer questions.
    [The prepared statement of Mr. Redeker follows:]

         Prepared Statement of James P. Redeker, Commissioner, 
                Connecticut Department of Transportation
    Good morning Senator Blumenthal, Senator Murphy, and members of the 
Subcommittee. I am Jim Redeker, Commissioner of the Connecticut 
Department of Transportation (CTDOT). I am also the current Chair of 
the Northeast Corridor Commission. I am honored to have the opportunity 
to discuss the power outage on Metro-North's New Haven Line (NHL), the 
impacts it had on the Northeast Corridor (NEC), and the need to ensure 
investments in the infrastructure to sustain this critical 
transportation and economic driver in the region and for the entire 
Northeast Corridor.
New Haven Line--Infrastructure and Investments
    For over 160 years, the New Haven Line has been an essential 
transportation and economic link between Manhattan, the northern 
suburbs of New York City and the cities in southwestern and central 
Connecticut. The New Haven Line is also critical to the entire 
Northeast Corridor, linking Boston to New York and Washington. The New 
Haven Line is the single busiest rail line in North America. Over 39 
million passengers are served by Metro-North annually on the commuter 
system, and an additional 3 million intercity passenger trips are 
served by Amtrak. The ridership performance is record-setting, 
indicating the attractiveness and the importance of the New Haven Line 
to Connecticut, to New York and to the entire region.
    The State of Connecticut has a unique role on the NEC, since the 
State owns 46 miles of the NEC infrastructure between New Haven and the 
New York border as well as three branch lines. In total, Connecticut 
owns 235 track miles on the NEC and three branch lines. As the owner, 
Connecticut has invested significant state and Federal resources to 
upgrade the rail infrastructure, including track, catenary and bridges. 
Connecticut has funded the complete replacement of 405 New Haven Line 
electric passenger vehicles (M8 rail cars) and the construction of 
related new maintenance facilities to support that fleet. As a result 
of the State's investment, progress toward a State of Good Repair has 
been strong. In the last 10 years, Connecticut has invested over $3.2 
billion in the NHL. Of that, two-thirds, or over $2 billion has been 
funded by state bond funds, while the remainder is Federal Transit 
Administration rail formula or discretionary funding.
    Unfortunately, even this amount of funding is not enough to address 
the infrastructure upgrades or improvements necessary for the New Haven 
Line. And Connecticut is not alone in addressing the backlog of 
infrastructure investments. The NEC relies on over 1,000 bridges and 
tunnels, many of which were constructed over a century ago and are in 
desperate need of replacement or repair. Key segments of the NEC are 
operating at or near capacity, such as the Hudson River Tunnels between 
New York and New Jersey, which carry over 70,000 riders daily and have 
no space for additional trains during rush hour. Major components of 
the NEC's electrical and signaling systems date back to the 1910s, 
making service on the Corridor highly susceptible to malfunctions and 
delay. Major investment in the Corridor is essential to reduce delays, 
achieve a state-of-good-repair, and build capacity for growth. In 2010, 
the NEC Infrastructure Master Plan (Master Plan) estimated that the 
Corridor required approximately $2.6 billion in annual expenditures 
over twenty years ($52 billion total) in order to achieve state-of-
good-repair and build infrastructure capable of supporting passenger 
rail demand forecasts for 2030. Investment levels over the past several 
decades have been critical in supporting the NEC's enviable record of 
continuous safe operation but have barely covered the costs of 
normalized replacement of basic components. They fall far short of the 
levels needed to address repair backlogs and meet future needs. The NEC 
Commission is currently in the process of developing an updated capital 
investment plan for the NEC that will address the needs of freight, 
commuter and intercity services.
New Haven Line Power
    The New Haven Line receives power from four substations. The 
substation in Mount Vernon, New York which experienced the failure on 
September 25, 2013 is the single point of power between Pelham and 
Harrison, New York. In Connecticut, there are three substations that 
provide power for the New Haven Line. These are designed so that if one 
substation is off line, the others can provide redundant power. In 
addition, Connecticut is constructing two new substations--one in New 
Haven and one in Cos Cob. With the addition of these two new 
substations, there will be additional power to support the expansion of 
service with the new M8 rail fleet and provide complete redundancy in 
Connecticut to power the New Haven Line if any of the substations is 
off line. These projects are scheduled to be completed by the end of 
this calendar year. These projects are an example of the proactive, 
strategic investments Connecticut is making to upgrade the New Haven 
Line and support the future improvement and expansion of service for 
all the users of the line.
Power Outage
    Unfortunately, on September 25 there was an unexpected failure of 
the power supply at the substation in Mount Vernon, New York. The 
substation was undergoing a planned, necessary upgrade, but the failure 
of a feeder cable left the New Haven Line without power in the critical 
section in New York. As a result, no Metro-North or Amtrak electric 
trains could be operated, leaving well over 130,000 customers without 
train service. For eleven days, the Nation's busiest rail line was 
crippled. The impacts to New York and Connecticut customers and 
businesses had a compelling economic impact that cannot be simply 
modeled. The impact on people's livelihood and mobility was profound.
    While we do not know what caused the failure, we certainly know 
that thousands of people were without this critical service, and we 
obviously need to seek to do everything possible to avoid a similar 
incident from occurring again. To that end, we await feedback from Con 
Edison so that critical lessons learned might be included in all future 
projects of this kind.
Customer Service
    I want to take a moment to reflect on the efforts made to provide 
service to customers during the eleven days without the Mount Vernon 
substation in service. As soon as the incident occurred, Connecticut 
DOT was in direct contact with Metro-North to initiate the delivery of 
substitute services. Recognizing that there is no solution that can 
provide the full capacity of the New Haven Line, the Metropolitan 
Transportation Authority (MTA), Metro-North and CTDOT developed and 
implemented substitute rail, bus and park/ride options that provided 
the most service that could possibly be delivered during the repair 
period. With the ultimate addition of temporary power by Con Edison, 
the substitute services ultimately were able to provide options for an 
estimated 85 percent of normal weekday New Haven Line peak ridership.
    The immediate response by Governor Dannel Malloy to urge people to 
find alternatives, telecommute or to stay home was instrumental in the 
ability to manage this crisis. Consistent and thorough updates on the 
progressive addition of service were also communicated. Above all, 
customers and other citizens rose to deal with the crisis and deserve a 
great deal of credit as they coped through this long service impact.
    The impact that this outage had resulted in an unprecedented action 
by the MTA Board of Directors to authorize a credit to customers. This 
action is not something that should be taken lightly, but it was 
clearly due to the once-in-a-lifetime failure that had an extraordinary 
impact. In fact, this singular action is not recommended for the 
ongoing business practices that govern the New Haven Line.
Summary
    The New Haven Line, as part of the Northeast Corridor, is a 
critical transportation and economic system. The line has seen, and 
will continue to see, significant investments in ongoing maintenance 
and in system upgrades. Its performance, as the busiest rail commuter 
line in the country, is exceptional. On average, it delivers 
consistent, highly reliable service that exceeds 95 percent on-time 
performance. And the quality of the system is improving consistently 
and rapidly with the delivery of all new rail cars, upgraded power 
supply and catenary systems, new stations and new parking. Those 
investments have also seen the implementation of the most significant 
additional weekday and weekend services in the history of the line. The 
results are proven by the growth in ridership in all markets in this 
region and for trips along the entire Northeast Corridor.

    Senator Blumenthal. Thank you, Commissioner.
    Mr. Lynch, thank you for being here today. I know you've 
submitted lengthy testimony, and all of the testimony is going 
to be made part of the record along with the exhibits that you 
submitted. So let me suggest that you summarize your testimony 
this morning. Thank you.

             STATEMENT OF OTTO LYNCH, P.E., FELLOW,

               STRUCTURAL ENGINEERING INSTITUTE,

              AMERICAN SOCIETY OF CIVIL ENGINEERS

    Mr. Lynch. My name is Otto Lynch, and I'm a member of the 
American Society of Civil Engineers, and I'm currently serving 
on their Committee on America's Infrastructure, representing 
the energy division. The ASCE would like to commend you for 
having this hearing today on the power outages and the larger 
issues related to the need for power delivery redundancy and 
improved reliability for the nation's electric grid.
    Virtually all infrastructure systems, from trains and 
traffic lights, to clean drinking water delivery and wastewater 
disposal, rely on electricity. This hearing today, on the eve 
of the anniversary of Superstorm Sandy, serves as an important 
reminder of just how vulnerable we are and how quickly one 
event can have a crippling effect on our communities when we 
are not adequately prepared.
    I am here to testify not on the specific events, but on the 
big picture questions to keep them from happening again here or 
anywhere in America. Our infrastructure is the foundation on 
which the national economy depends, yet it is taken for granted 
by most Americans. Most of us do not notice until the road is 
closed, the water stops running, the lights go out, or the 
commuter trains quit working.
    ASCE's 2013 Report Card for America's Infrastructure graded 
the Nation's infrastructure a D+. This is based on 16 
categories and found that the Nation needs to invest 
approximately $3.6 trillion by 2020 across those sectors to 
maintain the national infrastructure in good condition. The 
energy category also received a D+ in the 2013 Report Card.
    To update just our energy systems would cost $736 billion 
between now and 2020. Unfortunately, we are only on schedule to 
spend $629 billion. That leaves an investment gap of $107 
billion.
    America relies on an aging infrastructure, electrical grid, 
and pipeline distribution systems, some of which originated in 
the 1880s. This interconnected system includes power plants, a 
transmission grid, and distribution networks. The transmission 
grid forms the critical link between generation infrastructure 
and the distribution of electricity to households and 
businesses. Like our interstate highway system, failing to 
maintain adequate investment in this national asset has created 
congestion and the inability for power to flow efficiently from 
point A to point B.
    At one time, the U.S. had the best electric grid in the 
world. Unfortunately, that is no longer true. Aging equipment 
has resulted in an increasing number of intermittent power 
disruptions as well as a vulnerability to cyber attacks. It is 
my understanding that in this specific case, the underground 
transmission line was 36 years old and was only designed for 30 
years.
    Reliability issues are also emerging due to the complex 
process of rotating in new renewable energy sources and 
retiring our older energy sources. According to a recent report 
by the Executive Office of the President of the United States, 
``Economic Benefits of Increasing Electric Grid Resilience Due 
to Weather Outages,'' severe weather is the leading cause of 
power outages in the United States.
    The Edison Electric Institute reports that while 
transmission system outages do occur, over 90 percent of the 
outages occur along distribution systems. With respect to the 
failures in our distribution systems, The National Electrical 
Safety Code, which is adopted by all states except California, 
currently exempts all utility structures less than 60 feet 
tall, or distribution structures, from meeting the loads 
normally required in extreme weather for other structures.
    Structures greater than 60 feet tall, transmission 
structures, must meet the minimum ASCE requirements. The only 
storm hardening that structures less than 60 feet tall must 
meet was last revised in 1941, and the minimum load was 
actually decreased at that time.
    Florida Power and Light began a storm hardening program in 
2007 that included a significant decision to design all 
structures, regardless of height, according to the ASCE 
standards. As a result, in May 2013, it was announced that 
Florida Power and Light's experience with the recent tropical 
storms shows main power lines that have been hardened are 
roughly half as likely to experience an outage during severe 
weather.
    On the transmission side, congestion at key points in the 
electric transmission grid has been rising over the last five 
years, which raises concerns with distribution, reliability, 
and cost of service. This congestion can lead to system-wide 
failures and unplanned outages. As we saw with the blackout of 
2003 and other recent blackouts, these outages are not only an 
inconvenience, but they put public safety at risk and increase 
costs to consumers and businesses. The ASCE has determined that 
the average cost of a 1-hour power outage is just over $1,000 
for a commercial business.
    Although we currently have adequate power generation, we 
are shifting to more and more renewable energy sources and also 
retiring our coal plants. You don't build a new wind farm on 
the side of a retired coal plant. Thus, we are seeing a major 
shift in the locations of our power sources. We now have to 
transmit electricity from entirely different regions of our 
country than we ever have before. I equate it to moving the 
fuse panel on your house to the other side. As such, just like 
you would have to rewire your house, we are essentially having 
to rewire all of America.
    We would like to build more transmission lines for 
redundancy purposes. But the permitting and siting of these 
needed lines, especially when they are redundant, meets very 
stiff public resistance, which can result in significant 
project delays or even cancellations while significantly 
driving up the cost. It shouldn't take 10 or 15 years to permit 
a transmission line that only takes less than a year to build. 
It shouldn't take five times as much to permit the line as it 
costs to build it.
    As detailed in the ASCE Failure to Act Study, unless 
investment is accelerated, the performance of the U.S. economy 
will suffer. Americans will lose jobs. Personal income will 
fall. Business productivity will go down, and U.S. exports will 
fall. If we invest an additional $11 billion per year from now 
until 2020, we can prevent these losses. This investment gap is 
not insurmountable. I would venture to say if we could 
streamline the permitting process, the annual investment could 
be significantly lowered.
    There are a number of solutions that can help ensure that 
the Nation's interconnected electric grid remains reliable and 
efficient. First, we need to adopt a national energy policy 
that anticipates and adapts to future energy needs and promotes 
the development of sustainable energy sources, while increasing 
the efficiency of energy use, promoting conservation, and 
decreasing dependence on fossil fuels as sources are depleted. 
Such a policy must be adaptable and scalable to local and state 
policy.
    Two, we need to provide mechanisms for timely approval of 
transmission lines to minimize the time from preliminary 
planning to operation. Three, we should design and construct 
additional transmission grid infrastructure to efficiently 
deliver power from remote geographic locations to developed 
regions that have the greatest demand requirements.
    Four, we need to encourage the adoption of the same minimum 
design standards and storm loads for distribution poles as are 
used for transmission poles based on ASCE standards. And, 
finally, we need to continue research to improve and enhance 
the Nation's transmission and generation infrastructure as well 
as the development of technologies such as smart grid, real-
time forecasting for transmission capacity, and sustainable 
energy generation which provide a reasonable return on 
investment.
    Thank you very much.
    [The prepared statement of Mr. Lynch follows:]

     Prepared Statement of The American Society of Civil Engineers

   ``The Need to Maintain and Modernize the Nation's Electric Grid''

    The American Society of Civil Engineers (ASCE)\1\ would like to 
commend the Senate Committee on Commerce, Science, and Transportation 
for holding a hearing on the power outages that recently affected 
Metro-North's New Haven line, and the larger issues related to the need 
for redundancy and improved reliability for the Nation's electric grid. 
Virtually all infrastructure systems from trains and traffic lights, to 
clean drinking water delivery and wastewater disposal, rely on 
electricity.
---------------------------------------------------------------------------
    \1\ ASCE was founded in 1852 and is the country's oldest national 
civil engineering organization. It represents more than 146,000 civil 
engineers individually in private practice, government, industry, and 
academia who are dedicated to the advancement of the science and 
profession of civil engineering. ASCE is a non-profit educational and 
professional society organized under Part 1.501(c)(3) of the Internal 
Revenue Code. www.asce.org
---------------------------------------------------------------------------
    This hearing today, on the eve of the anniversary of Hurricane 
Sandy, serves as an important reminder of how vulnerable we are, and 
how quickly one event can have a crippling effect on our communities 
when we are not adequately prepared.
An Aging Infrastructure System
    Our infrastructure is the foundation on which the national economy 
depends, yet it is taken for granted by most Americans. Most of us do 
not notice until the road is closed, the water stops working, or the 
lights go out.
    Deteriorating and aging infrastructure is not only an 
inconvenience, it financially impacts our families, local communities, 
and our entire country. Our inability to keep our infrastructure in 
good working condition undermines our Nation's competitiveness and 
economic strength.
    As stewards of the Nation's infrastructure, civil engineers are 
responsible for the design, construction, operation and maintenance of 
our vital public works. With that responsibility comes the obligation 
to periodically assess the state of the infrastructure, report on its 
condition and performance, and advise on the steps necessary to improve 
it.
    ASCE's 2013 Report Card for America's Infrastructure \2\ graded the 
Nation's infrastructure a ``D+'' based on 16 categories and found that 
the Nation needs to invest approximately $3.6 trillion by 2020 across 
those sectors to maintain the national infrastructure in good 
condition.
---------------------------------------------------------------------------
    \2\ www.infrastructurereportcard.org
---------------------------------------------------------------------------
    The energy category also received a grade of ``D+'' in the 2013 
Report Card. To update just our energy systems would cost $736 billion 
between now and 2020. Unfortunately, we are only on track to spend $629 
billion during that time period, leaving an investment gap of $107 
billion.
    The Report Card highlights the fact that, like everything, 
infrastructure has a lifespan. Good maintenance can extend that 
lifespan, but not forever, and a lack of maintenance can shorten it. 
This is not something that happens dramatically overnight, but a 
gradual worsening over time.
    Far too many of our infrastructure systems lack the funding needed 
for proper maintenance and we continue to see categories that simply 
are not seeing the investment to improve day to day performance and 
save money in the long-term. The backlog of projects to maintain and 
modernize our infrastructure keeps growing.
Conditions of the Nation's Electric Grid
    America relies on an aging electrical grid and pipeline 
distribution systems, some of which originated in the 1880s. This 
interconnected system includes power plants, a transmission grid, and 
distribution networks. The transmission grid forms the critical link 
between generation infrastructure and distribution of electricity to 
households and businesses. Like our interstate highway system, failing 
to maintain adequate investment in this national asset has created 
congestion and the inability for power to flow efficiently from point A 
to point B.
    Aging equipment has resulted in an increasing number of 
intermittent power disruptions, as well as vulnerability to cyber 
attacks. Reliability issues are also emerging due to the complex 
process of rotating in new energy sources and ``retiring'' older 
infrastructure. According to a recent report by the Executive Office of 
the President of the United States, Economic Benefits of Increasing 
Electric Grid Resilience to Weather Outages, severe weather is the 
leading cause of power outages in the United States.\3\ The Edison 
Electric Institute reports that while transmission system outages do 
occur, roughly 90 percent of all outages occur along distribution 
systems.\4\
---------------------------------------------------------------------------
    \3\ Economic Benefits of Increasing Electric Grid Resilience to 
Weather Outages, Executive Office of the President (of the Unities 
States), August 2013. p. 3 http://energy.gov/sites/prod/files/2013/08/
f2/Grid Resiliency Report_FINAL.pdf
    \4\ Edison Electric Institute. ``Underground vs. Overhead 
Distribution Wires: Issues to Consider.'' Washington, D.C. Accessed 
July 22, 2013.
---------------------------------------------------------------------------
    The National Electrical Safety Code,\5\ which is adopted by all 
states except California, currently exempts all utility structures less 
than 60 feet tall, i.e., ``distribution poles'', from meeting the loads 
normally required in extreme weather for other structures derived by 
ASCE standards.\6\Structures greater than 60 feet tall, i.e., 
transmission structures, must meet these minimum ASCE standards. The 
only `storm loading' that structures less than 60 feet tall must meet 
was last revised in 1941, and the minimum load was actually decreased 
at that time.
---------------------------------------------------------------------------
    \5\ 2012 National Electrical Safety Code, p. 191-203, http://
standards.ieee.org/about/nesc/
    \6\ ASCE 7-10, Minimum Design Loads for Buildings and Other 
Structures, http://www.asce.org/
Product.aspx?id=2147487569&productid=194395836
---------------------------------------------------------------------------
    Florida Power and Light (FPL) began a Storm Hardening program in 
2007 that included a significant decision to design all structures, 
regardless of height, according to the ASCE standard. As a result, in 
May 2013 it was announced that ``FPL's experience with the recent 
tropical storms shows main power lines that have been hardened are 
roughly half as likely to experience an outage during severe weather.'' 
\7\
---------------------------------------------------------------------------
    \7\ FPL announces plan to accelerate strengthening of Florida's 
electric grid during annual storm drill, May 2, 2013, http://
www.fpl.com/news/2013/050213.shtml
---------------------------------------------------------------------------
    Congestion at key points in the electric transmission grid has been 
rising over the last five years, which raises concerns with 
distribution, reliability and cost of service. This congestion can also 
lead to system-wide failures and unplanned outages. These outages are 
not only an inconvenience, but they put public safety at risk and 
increase costs to consumers and businesses. The average cost of a one-
hour power outage is just over $1,000 for a commercial business.
    In the near term, it is expected that energy systems have adequate 
capacity to meet national demands. From 2011 through 2020, demand for 
electricity in all regions is expected to increase 8 percent or 9 
percent in total, based on population growth and projections from the 
U.S. Energy Information Administration. After 2020, capacity expansion 
is forecast to be a greater problem, particularly with regard to 
generation, regardless of the energy resource mix. Excess capacity is 
expected to decline in a majority of regions, and generation supply 
could dip below demand by 2040 in every area except the Southwest 
without prudent investments.\8\
---------------------------------------------------------------------------
    \8\ ASCE, Failure to Act: Economic Impact of Current Investment 
Trends in Electricity Infrastructure, 2012, p. 30.
---------------------------------------------------------------------------
    The permitting and siting of needed transmission lines often meets 
with public resistance, which can result in significant project delays 
or eventual cancellations while driving up costs. Over three times as 
many low-voltage line projects, which are typically built in more urban 
areas, were delayed in 2011, compared to high-voltage lines.\9\ The 
result is that while new transmission lines are anticipated and 
planned, they are not being built due to permitting issues.
---------------------------------------------------------------------------
    \9\ NERC 2011 Long-Term Reliability Assessment, p. 35
---------------------------------------------------------------------------
    Investment for transmission has been increasing annually since 2001 
at a nearly 7 percent annual growth rate. For local distribution 
systems, however, national-level investment peaked in 2006 and has 
since declined to less than the level observed in 1991.\10\ 
Construction spending has decreased in recent years, although the aging 
of local distribution networks, lack of funding for maintenance, and 
resulting equipment failures have received public attention and put 
pressure on some utilities to make improvements.
---------------------------------------------------------------------------
    \10\ Transmission and distribution numbers from Edison Electric 
Institute, 2012 Report, table 9-1; generation investment was estimated 
from reporting forms of the EIA and Federal Energy Regulatory 
Commission, with averages applied for investment cost per kilowatt hour 
for applicable generating technologies [close up space between lines]
---------------------------------------------------------------------------
Economic Implications of Continued Underinvestment
    In an effort to examine the broader economy's link to the health of 
the Nation's infrastructure, ASCE released a series of economic studies 
in 2012 that answers a critical question--what does a ``D+'' mean for 
America's economic future? The study on energy, Failure to Act: The 
Economic Impact of Current Investment Trends in Electricity 
Infrastructure shows that an investment in our Nation's generation, 
transmission, and distribution systems can improve reliability, reduce 
congestion, and build the foundation for economic growth.
    While investments in the transmission sector have been promising 
since 2005, unless the investment gap is filled, electricity 
interruptions will rise, increasing costs for households and 
businesses.
    Interruptions may occur in the form of equipment failures, 
intermittent voltage surges and power quality irregularities due to 
equipment insufficiency, or blackouts or brownouts as demand exceeds 
capacity for periods of time. The periods of time can be unpredictable 
in terms of frequency and length.
    By 2020, there is estimated to be an investment shortfall of $107 
billion across generation, transmission and distribution systems needed 
to keep up with the projected demand for energy. Shortfalls in grid 
investments (transmission and distribution) are expected to account for 
almost 90 percent of the investment gap, equaling nearly $95B in 
additional dollars needed to modernize the grid.
    By 2020, the cumulative costs of service interruptions to 
households will be $71 billion, or $565 per household over the period. 
Businesses will lose approximately $126 billion.
    Thus, the total cost to the U.S. economy will be $197 billion from 
now until 2020, and annual costs to the economy will average $20 
billion by 2020. These costs are not felt equally across the United 
States, with larger cost increases in the South and West.
    Unless investment is accelerated, the performance of the U.S. 
economy will suffer.

  <bullet> Americans will lose jobs. The U.S. economy will end up with 
        an average of 529,000 fewer jobs than would otherwise occur by 
        the year 2020. Impacts will fall heavily on the retail and 
        consumer spending sectors with a 40 percent drop in employment 
        in retail, restaurants, and bars as households spend more on 
        electricity.

  <bullet> Personal Income Will Fall: Personal income will fall by a 
        total of $656 billion by 2020.

  <bullet> Business productivity will go down. GDP is expected to fall 
        by a total of $496 billion by 2020.

  <bullet> U.S. exports will fall. The U.S. will lose $10 billion in 
        exports in 2020, which could grow to $40 billion by 2040. The 
        hardest hit industrial sectors will be:

    <ctr-circle> Aerospace

    <ctr-circle> Electronic components

    <ctr-circle> Air transport

    If we invest an additional $11 billion per year from now until 
2020, we can prevent these losses. This investment gap is not 
insurmountable.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Moving Forward to Modernize our Nation's Electric Grid
    There are a number of solutions that can help ensure that the 
Nation's interconnected electric grid remains reliable and efficient:

  <bullet> Adopt a national energy policy that anticipates and adapts 
        to future energy needs and promotes the development of 
        sustainable energy sources, while increasing the efficiency of 
        energy use, promoting conservation, and decreasing dependence 
        on fossil fuels as sources are depleted. Such a policy must be 
        adaptable and scalable to local and state policy.

  <bullet> Provide mechanisms for timely approval of transmission lines 
        to minimize the time from preliminary planning to operation.

  <bullet> Design and construct additional transmission grid 
        infrastructure to efficiently deliver power from remote 
        geographic generation sources to developed regions that have 
        the greatest demand requirements.

  <bullet> Encourage the adoption of the same minimum design methods 
        and storm loads for distribution poles as are used for 
        transmission structures derived by ASCE standards.

  <bullet> Continue research to improve and enhance the Nation's 
        transmission and generation infrastructure as well as the 
        deployment of technologies such as smart grid, real-time 
        forecasting for transmission capacity, and sustainable energy 
        generation which provide a reasonable return on investment.
Conclusion
    Electricity is the basis for a competitive U.S. economy and 
contributes to the success or failure of American businesses. Our 
quality of life also depends on access to affordable and reliable 
energy.
    Looking ahead in the 21st century, our Nation is increasingly 
adopting technologies that will automate our electric grid and help 
manage congestion points. In turn, this will require robust integration 
of transmission and distribution systems so that the network continues 
to be reliable. Investments in the grid, select pipeline systems, and 
new technologies have helped alleviate congestion problems in recent 
years, but capacity and an aging system will be issues in the long 
term.
    To compete in the global economy, improve our quality of life and 
raise our standard of living, we must maintain and modernize America's 
infrastructure and the electric grid.

                                Appendix


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Blumenthal. Thank you. Thank you very much to all 
of you. I'm going to begin my questioning with Mr. Ivey, if I 
may. Let me just say I appreciate that all of you agree, and I 
strongly share the view, that our nation needs to make 
additional investments in infrastructure.
    As you may know, I proposed a National Railway Trust Fund, 
similar to our highway fund, to help provide the funds that are 
necessary for that investment. Our nation has been laggard and 
lax in making sufficient investments, and so I think we begin 
on that common ground.
    We begin also, I think, on the common ground that this 
failure had costs that are intolerable and disruptive, not only 
to the commuters that you serve, but also to freight and our 
economy. The ripple effects were far reaching and profound.
    Mr. Ivey, speaking about cost, can you commit to us today 
that Con Ed will reimburse Metro-North for the refunds that it 
has to make to its riders?
    Mr. Ivey. Thank you, Senator. Con Edison recognizes the 
critical role that this line plays to the New York and 
Connecticut area. We also know that adequate contingency plans 
are important for critical infrastructure providers, whether 
they are water treatment facilities or hospitals.
    The MTA has already provided for refunds for customers. We, 
as a utility, don't believe our customers should bear the risk 
when a customer decides to take one of the feeders out of 
service, because we do know that failures can happen. In this 
case, it's a very improbable circumstance, but the failure did 
occur. But we think it unfair to ask our customers to bear the 
risk when a customer takes a piece of equipment out of service 
at their request.
    Senator Blumenthal. It was your line that failed, was it 
not?
    Mr. Ivey. Yes, sir.
    Senator Blumenthal. And it was your responsibility to 
maintain and make sure that line served the substation owned by 
Metro-North. Is that correct?
    Mr. Ivey. Again, Metro-North requested on September 13 that 
one of the two feeders that serve the Mount Vernon substation 
be taken out of service to facilitate their upgrade. We were 
performing freeze operations in order to facilitate that work 
on our feeders. As I said in my testimony, this is a process 
that we've done over many years, back decades. The earliest 
procedures on this were written back in the 1950s. Our 
employees were following time-tested, documented procedures for 
these freeze operations.
    As I said earlier, we're going to do forensic analysis on 
the cable, the pipe, and the work area, to learn what has 
occurred here. We think it more likely than not that the freeze 
operations contributed to the failure of the in-service feeder. 
So that's something, as I said earlier, that the Public Service 
Commission of New York is going to review, and they're going to 
be part of that investigation.
    But, again, it goes back to our customers not bearing the 
risk when an individual customer like Metro-North decides to 
take one of the two feeders out of service. And we're doing 
work--again, it's unfortunate. The circumstances around the 
feeder failure is something we've not seen in our history. We 
do a number of these operations on an annualized basis, and we 
just haven't seen this occur.
    Senator Blumenthal. Those two substations were served by 
two feeder cables side by side, correct?
    Mr. Ivey. That's correct.
    Senator Blumenthal. And you've provided me and my office 
with a diagram showing the two feeder cables, 38W09 and 38W10, 
correct?
    Mr. Ivey. That's correct.
    Senator Blumenthal. And they were, in effect, right next to 
each other, correct?
    Mr. Ivey. The freeze pit that you're describing there is--
the dimensions are eight foot by six foot by five foot deep, 
and the two feeders coming through that freeze pit, as the 
picture you have described--my recollection is that the feeders 
are roughly two feet apart. So we're conducting freeze 
operations on the one feeder. Inside the freeze pit, we 
actually protect the other feeder while we're performing 
operations on the one.
    Senator Blumenthal. In effect, you surround the feeder 
cable on which work is being done with a freeze jacket, 
correct?
    Mr. Ivey. With a jacket, yes, sir.
    Senator Blumenthal. And you pump in the liquid nitrogen to 
freeze the cable.
    Mr. Ivey. That's correct.
    Senator Blumenthal. And in this instance, through whatever 
mechanism or dynamic that occurred in the freeze pit, the other 
cable suffered damage as a result, correct?
    Mr. Ivey. That's correct. It's important to note that 
inside the freeze pit--an excavation, if you will, eight foot 
by six foot by five foot deep--we protected the other in-
service feeder. So the area where the failure occurred was 
outside the freeze pit some five feet below grade, not visible 
to any of the workers that were----
    Senator Blumenthal. And, normally, there would be no 
failing as a result of this procedure. Is that correct?
    Mr. Ivey. That's correct. We do----
    Senator Blumenthal. And in this instance, the cables --at 
least one of the cables, the one that failed, was 36 years old, 
correct?
    Mr. Ivey. I believe these particular cables were installed 
roughly in 1976, Senator, as I recall it.
    Senator Blumenthal. And the normal design life is 30 years.
    Mr. Ivey. We believe that thermal and mechanical issues are 
more correlated to failures of these feeders than age. We've 
done engineering evaluations on these cables, and we've pulled 
cables out of the field that are of this vintage that are 60 
years of age, and we find that the thermal insulation is very 
much not degraded at all with an awful lot of life left.
    Additionally, as we look back at the performance of these 
feeders over 10, 20, 30, 40 years, we tend to see three to four 
failures on an annualized basis on a base of around 700 miles 
of these sorts of cable systems. So as we look backward, we see 
really strong performance of these feeder cables, regardless of 
the age. And as we take feeders out and do engineering 
evaluations, we don't find degradation of the insulation level 
which would be indicative of a potential of a future failure.
    Senator Blumenthal. So my belief--and I think a rational 
person would conclude--is that the fact that this cable was 6 
years beyond its normal design life was a contributing factor, 
if not the cause, of perhaps its deteriorating and ultimately 
its failing. You would deny that that was a rational and 
logical conclusion?
    Mr. Ivey. Again, we have to go through the forensic 
analysis of the cable, the pipe, and the work area.
    Senator Blumenthal. And you're doing that forensic analysis 
now?
    Mr. Ivey. That starts this week, I believe.
    Senator Blumenthal. And when will it be done?
    Mr. Ivey. Early November, as I recall, Senator, we'll 
finish the analysis on the cable, the pipe. That's our 
projected date. But it's important, again, to note that we're 
saying it's more likely than not that the operations we were 
doing at the freeze pit likely contributed to the cause of the 
failure.
    I said in my direct testimony we saw freezing of the ground 
outside the freeze pit, not visible to the naked eye, five feet 
below grade. And I believe, absent this work, we're not talking 
about this feeder failure. These feeders have a long history of 
very good performance. We've not seen feeder failures on these 
feeders. So there's strong performance with these feeders. So, 
again, age is not the factor that causes these feeders to fail.
    Senator Blumenthal. And I apologize for putting it in sort 
of simplistic layman's language. But, in effect, the feeder 
cable, 6 years beyond its normal design life, was somehow 
impacted by this freezing which caused it to fail. Is there any 
other reason that your forensic analysis would disclose other 
than that failing being the result of the freezing?
    Mr. Ivey. I believe, again, it's more likely than not that 
what the forensic analysis will confirm are early indications 
that the freeze operations contributed to the failure of the 
feeder.
    Senator Blumenthal. And are you saying that the fact that 
it was 6 years beyond its normal design life was irrelevant or 
should be dismissed as a possible cause?
    Mr. Ivey. Our experience has indicated that age is not the 
factor. It's mechanical and thermal loading of these feeders 
that contribute to failure, not--age is not the factor here. In 
fact, these feeders, again, that go into the Mount Vernon 
substation were installed in 1976. We've not seen any failures 
on these feeders.
    Senator Blumenthal. But one way or the other, it was your 
equipment that failed, correct?
    Mr. Ivey. It was, sir.
    Senator Blumenthal. So why should you not cover the cost?
    Mr. Ivey. Again, this particular failure is something we've 
not seen. Our employees were following documented, time-tested 
procedures. Again, we want to learn about what happened here by 
going through the forensic analysis and gain benefit from the 
lessons learned. But we have not seen this sort of phenomenon 
before.
    I understand this is an absolute inconvenience to the folks 
of Connecticut and New York in terms of the impact on this 
line. So I'm not minimizing that for a second. But, again, we 
have to finish the analysis, confirm what happened here and 
why, so we can build those lessons learned into what we do 
going forward.
    Senator Blumenthal. Well, may I just suggest that my own 
view, with all due respect, is that there is an obligation. It 
certainly is an ethical, in my view, obligation, if not a legal 
obligation, for Con Ed to make whole, to compensate, to 
reimburse Metro-North and others who suffered as a result of 
Con Ed's failure of equipment.
    And it may have been the result of a failure to replace a 
feeder cable that was 6 years beyond its normal design life. It 
may have had to do with the way the freeze operation was 
conducted. But, again, I would urge that you cover the cost.
    Let me ask you--did you warn Metro-North about the 
potential risk of this operation?
    Mr. Ivey. Meaning the freeze operation?
    Senator Blumenthal. The potential negative impacts of the 
freeze operation that was necessary to enable Metro-North to 
work on its station.
    Mr. Ivey. To my knowledge, we did not provide any warning 
that there was potential impact of the freeze operation. Again, 
it's important to note that we've done this 20 times a year 
over a long period of time. We have time-tested, well 
documented procedures that our employees follow, and we just 
haven't seen the freeze operations impact an adjacent feeder.
    Senator Blumenthal. So there was no warning to Metro-North 
that this freeze operation might have risks of the feeder cable 
failing.
    Mr. Ivey. Not to my knowledge.
    Senator Blumenthal. Was there any preparation in terms of 
contingency for the possibility that that feeder cable would 
fail and, therefore, in effect, no power would be provided to 
the railroad?
    Mr. Ivey. In this instance, on September 13, we take out 
the one feeder on a scheduled basis in order to facilitate 
Metro-North's work at the Mount Vernon substation. We know at 
that point that we're down to a single feeder, in a single 
contingency situation. Equipment does fail. It's improbable in 
this instance. But failures do occur.
    I don't know Metro-North's capabilities in terms of diesel 
train losses and capability to move passengers along the New 
Haven Line. What I do know at that point is we're down to a 
single feeder, and equipment does fail. So I would defer to Mr. 
Permut at Metro-North regarding their contingency plans for the 
improbable instance of a feeder failure.
    Senator Blumenthal. There was, in fact, no contingency 
plan, correct?
    Mr. Ivey. Again, I would defer to Mr. Permut about the 
contingency plan in order to move passengers along this line. 
After the failure, Senator, as you know, we worked--in about 3 
days time stood up a temporary substation at Harrison. Despite 
what occurred in advance of the outage, we knew people were 
being impacted by the outage to this line.
    So we worked very closely with Metro-North and its 
engineers, and we essentially built a substation in three days. 
And on that Saturday before announcing service levels on 
Monday, we tested trains on that line, using residential power 
to serve train load. We had a successful test, and we announced 
incremental services. So, essentially, we created a contingency 
after the outage in order to provide enhanced levels of service 
to the line.
    Senator Blumenthal. Mr. Ivey, I want to express my 
appreciation for the work done by the men and women who work 
for you in so quickly reacting and the enormous effort that it 
took to construct that temporary station. So my questions are 
not without appreciation for the extraordinary effort and time 
and, indeed, expense. How much did it cost to construct that 
temporary substation?
    Mr. Ivey. I don't remember precisely, but in round numbers 
around $4 million to stand up that temporary substation.
    Senator Blumenthal. $4 million?
    Mr. Ivey. Around $4 million.
    Senator Blumenthal. And in the diagram that, again, you've 
provided my office, that substation is represented by the red 
diagram here?
    Mr. Ivey. That's correct.
    Senator Blumenthal. And that was at a cost of about $4 
million. But that substation was unplanned, correct?
    Mr. Ivey. That's correct.
    Senator Blumenthal. So the plan, in effect, had to be done 
on the fly in reaction to this massive outage that occurred at 
3 a.m. on September 25.
    Mr. Ivey. That's correct.
    Senator Blumenthal. Wouldn't it have been a better practice 
either to have a backup or at least to have a plan?
    Mr. Ivey. Again, in my view, it would be the responsibility 
of Metro-North to determine, in the unlikely event of a single 
feeder failing, what the contingency plan would be. What would 
be the contingency plan? I would use an analogy, Senator, if 
you would allow me. If we had a hospital that had two feeds, 
and they asked Con Edison to take one of the two feeders out of 
service to upgrade their equipment, we would facilitate that. 
Then they would be on one feeder in that instance.
    I don't see it as my job to figure out how large their 
generator should be, what maintenance and what loads. That's 
really--I don't know their business, like I don't know Metro-
North's business. I don't know their capacity to replace 
electric trains with diesel trains. And, really, I think I 
would have to rely on them to determine their ability to move 
people along this really important corridor.
    Senator Blumenthal. The contingency plan, in other words, 
or the backup system would be solely Metro-North's 
responsibility. Is that your view?
    Mr. Ivey. We believe--yes, and that Metro-North had a 
contingency plan for this improbable event.
    Senator Blumenthal. Mr. Permut, was there a contingency 
plan?
    Mr. Permut. From our perspective, Senator--and I think it's 
important that we start with just a little background for a 
minute. We had been in discussions between Con Edison and 
Metro-North for a number of years in this project, and we had 
been discussing risk. As Mr. Ivey indicated, the probability of 
an event was extremely low, and that was our understanding as 
well. Saying that, it's clear that something went wrong, and 
the plans that we had were not sufficient to run the New Haven 
Line.
    As I said in my testimony, as part of the second part of 
this project, as well as on an ongoing basis, we have agreed to 
work together to look at what the contingency could be. It's 
very clear to us that we are unable to have an adequate service 
plan for our customers if we don't have sufficient electric 
power.
    This is, as was pointed out, the largest electric line in 
the country. We cannot come anywhere close to providing the 
service that our customers deserve and we'd like to deliver 
without having an adequate amount of power. So as we go 
forward, we are going to be working together looking at the 
question of contingencies tied to the power supply, because we 
know that if there's not power, we cannot operate close to a 
regular service.
    Mr. Redeker testified--and I can explain further if you'd 
like--that we are working in Connecticut on providing 
electrical redundancy so we can operate service if we lose a 
substation. And that's two projects that will be done within a 
matter of a few months.
    Senator Blumenthal. Well, I'm going to turn to Connecticut 
in just a moment.
    I should mention, as you can all see, that we've been 
joined by my colleague, Senator Murphy, and I'm sure he'll have 
some questions, too. I don't mean to monopolize the proceedings 
here.
    But your point, Mr. Permut, if I can just cut through what 
you just said, is that, essentially, there was no plan in this 
instance for the Mount Vernon substation, either Dunwoodie or 
Washington Street substation, in the event that power was lost.
    Mr. Permut. Senator, there was not a plan. And, again, I 
would just state that there is no--absent having electrical 
power, we cannot provide New Haven Line service.
    Senator Blumenthal. But there is the possibility for having 
a backup. And I'm going to ask Mr. Lynch in just a moment about 
the protocols and what those protocols prescribe for backup 
power in this kind of situation. But wouldn't it have been 
prudent to have either a backup source of power or at least a 
contingency plan, which eventually had to be devised ad hoc on 
the fly?
    Mr. Permut. Let me respond to that. I think that, clearly, 
when we look back, if we had had an alternative source of 
power, we would have avoided this--a third source of power 
during this operation, we would have avoided this very, very 
unfortunate event. To develop that is something, as I 
mentioned, again, the parties had talked about. There are 
significant costs associated with that. And as you know, and as 
you actually stated, we are constantly balancing issues of 
spending money on contingency versus spending money--money we 
desperately need--to just bring the line into a regular state 
of good repair. So that's the type of thought process that we 
follow.
    The contingency that was set up at Harrison was an 
improvement. But understand that because of the nature of the 
high-voltage power that New Haven gets--and the best Con Edison 
could do, using, as I think Mr. Ivey explained, their network--
that allowed us, after they did all that work, which was 
extremely important, to run three trains, electric trains in 
that section, at the same time. The normal New Haven Line 
schedule requires 10 trains, 10 electric trains. So that's a 
contingency, but it's a partial contingency.
    Senator Blumenthal. What was the cost of the 12 days of 
disrupted service?
    Mr. Permut. Senator, we're still calculating that. We have 
some preliminary estimates. I would----
    Senator Blumenthal. You're making refunds, or at least 
you're giving your customers credit.
    Mr. Permut. There are refunds, and we lost a significant 
number of riders because of the service was--people didn't want 
to take the train. We couldn't collect tickets as well because 
the trains were so jammed. We also, at extra cost, had a lot of 
people doing a lot of work. We had the bussing cost.
    So on order of magnitude is between, I would say, $8 
million and $12 million, and we are still looking at and will 
be gathering that data over the next weeks. We'll see how many 
people are asking for the refunds. As you know, we just started 
that last week, and we'll be calculating that and we'll be 
finalizing that.
    Senator Blumenthal. The estimate that I saw was about $2 
million a day. Is that wrong?
    Mr. Permut. No, no, that's--I'm not sure of the source. Our 
estimate right now for the 12 days is between $8 million to $12 
million.
    Senator Blumenthal. Are you concerned that there may be the 
same vulnerability, Mr. Permut, with respect to other 
substations that exist in Connecticut?
    Mr. Permut. I'm always concerned about the risks we have on 
the New Haven Line. We have an old infrastructure. I'm very 
concerned about, particularly, the bridges, the catenary 
system. The moveable bridges are 120 years old. The catenary 
system is 100 years old. So I'm always concerned about that.
    With regard to the substations in Connecticut, we have, as 
I think Mr. Redeker testified, three substations. They're far 
apart. That's historically what the railroad inherited with the 
New Haven Line built. So we have in round numbers, Senator, a 
substation about every 20 miles between Harrison, New York, 
which is where the Con Ed system ends and CL&P starts, and New 
Haven.
    Over the past years, Connecticut has invested in expanding 
that supply system. They've built new substations, and they've 
expanded the substations, both for redundancy and so we could 
operate more service. The service has grown so dramatically in 
the past 30 years.
    At this point in time, we have two very important projects 
that will give us full--right now, we have redundancy for about 
30 miles of the 55 miles between Harrison and New Haven, which 
means that if we lost one substation in that 30-mile section, 
we could continue to operate. The two projects that Connecticut 
is funding, one in Cos Cob and one in New Haven, will give us 
full redundancy from Harrison to New Haven for 55 miles.
    Senator Blumenthal. And when you say full redundancy, do 
you mean a second backup for every substation?
    Mr. Permut. I mean if they lose a substation--substations 
will typically have more than one feed. So it's not a matter of 
losing one feed. It's a matter of losing the substation. 
Typically, the way the New Haven Line is built--because it's AC 
traction and you have fewer substations. When you look at the 
subway, when you look at Metro-North's Harlem and Hudson lines, 
you have substations every few miles, and they are designed so 
if we lose one substation, which happens, the line can continue 
to operate. That's a fairly common occurrence.
    On the New Haven Line, it's somewhat different because of, 
again, how it was built. So when these two projects are 
completed, which should be by the first quarter of 2014, we 
will then be able to operate between Harrison and New Haven if 
we lose one of the substations completely.
    Senator Blumenthal. So if one of the feeder cables fails, 
or one of the substations fails, there will be a backup that--
--
    Mr. Permut. Yes.
    Senator Blumenthal.--will be absolutely reliable.
    Mr. Permut. That's right. The power can come from another 
substation.
    Senator Blumenthal. Do you agree, Commissioner?
    Mr. Redeker. Yes, I do. The goal of these two projects is 
complete redundancy, and our schedule for that is a little 
delayed because we've had to shift resources to the Mount 
Vernon area with Metro-North. But we believe that within a 
couple of months, we will be completely redundant with those 
systems throughout the New Haven Line.
    Senator Blumenthal. So as of 2014, there's no possibility 
that this kind of breakdown in service could occur for the 
reasons that it did in Mount Vernon?
    Mr. Redeker. That's correct.
    Senator Blumenthal. Mr. Lynch, let me ask you before I turn 
to Senator Murphy--the protocol is moving in a direction of 
``N-2'', meaning that there are two backups for this kind of 
feeder cable, ``N-1'' being the one backup situation. Is that 
generally correct, that the recommendation of the American 
Society of Civil Engineers is moving in that direction?
    Mr. Lynch. In general, in the industry--speaking outside of 
ASCE--the industry desires to have an ``N-1'', that is, so that 
you can take any line out for service, maintenance, whatever 
you need to do. We would love to have ``N-1''. It's hard to 
get.
    As I mentioned earlier, just to add a line that isn't 
needed--it's very hard to go out and tell the public that we're 
going to build a new line so that we can have that ``N-2'' 
contingency--``you mean, it's not going to be used?'' ``Well, 
yes, it's going to be used if we need it.'' It's just 
impossible to do. The public doesn't want that. They don't want 
to pay for it. They don't want to see it. They don't want to 
deal with it.
    In the case that I'm hearing right here, from what I'm 
hearing at this table, it appears to me there was a redundant 
system. It's just that one of them was already taken out. Could 
there have been a third one? Sure. Who's going to pay for that? 
Who's going to permit it? Where can we put that line at? I 
don't know the specifics of the exact situation, but that would 
be very nice. Is it realistic? I'm not sure.
    Senator Blumenthal. When work is done on one cable or one 
line, the chances of outage are always there, and the 
improbable often happens, correct?
    Mr. Lynch. I wouldn't say often. It can happen.
    Senator Blumenthal. So prudent planning would dictate that 
there be some kind of backup, correct?
    Mr. Lynch. Yes. And as engineers, we would love to do that. 
Unfortunately, there's cost and everything else that's involved 
with doing that, and we have to consider that.
    Senator Blumenthal. And the entire New Haven Line, when it 
comes to electric power, really is only as strong as its 
weakest point, because if the weakest point fails, as we saw in 
Mount Vernon, the entire line is crippled, correct?
    Mr. Lynch. Yes, sir.
    Senator Blumenthal. Thank you.
    Mr. Lynch. I would like to add, as I sit here, our nation 
is running on less redundancy than that railroad is out there.
    Senator Blumenthal. Thank you.
    Senator Murphy?

             STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you very much, Mr. Chairman, and I 
want to thank you for convening this hearing and having what 
has been a laser-like focus on protecting Connecticut consumers 
and repairing and upgrading our infrastructure. As a member of 
this committee, you have been on top of this crisis since day 
one. And having taken the unusual step of bringing the 
Committee here to Connecticut shows that you are not giving up 
in your efforts to try to learn from the mistakes made here.
    I want to thank you for giving me the courtesy of being 
able to join the Committee to ask a few questions. And given 
that this is really your hearing, Mr. Chairman, I only have a 
few. Let me just apologize for being a little late and not 
hearing the testimony of my colleagues. But I'm glad that 
you've assembled two very esteemed panels to talk about what 
happened and what happens going forward.
    I have maybe just a few questions to add to yours regarding 
the specific situation at hand. I think, Mr. Chairman, you did 
a wonderful job of outlining some of the most important 
questions about what happened and how we learn going forward. 
And then I may have a few broader questions about the fragility 
of the line with respect to other potential liabilities down 
the line.
    First, Mr. Permut, as a lay person who doesn't spend his 
time on this committee examining these issues in the depth that 
Senator Blumenthal does, can you just explain to me how the 
responsibility for investment in electrical infrastructure 
along the line and feeding into the line is divided up today 
between the MTA and Con Edison? Who takes care of what pieces 
of the infrastructure as that arrangement stands today?
    Mr. Permut. Let me say that we have arrangements with three 
utilities, Con Edison, Connecticut Light and Power, and United 
Illuminating. Because of the nature of the high voltage that 
comes into the New Haven Line, anything we do has to be done 
with the utility, because together we have to plan--if we want 
to build a substation or make a change, it has to be consistent 
with the feeder network. So there's regular ongoing dialog 
between ourselves and the utilities.
    The other part of the discussion is between ourselves and 
Connecticut, the Connecticut Department of Transportation. And 
we make the judgments jointly as to how to spend scarce public 
dollars. What are the best investments to be made? We made a 
judgment call, as Mr. Redeker pointed out, about four or 5 
years ago to invest in the power system in Cos Cob and New 
Haven to provide additional power, to provide a level of 
redundancy.
    So once that decision is made between the parties--and we 
will get input from the utilities because that's the only way 
we know what's feasible and what it costs--then that project is 
implemented either by the State of Connecticut or by Metro-
North staff working with the appropriate utility.
    Senator Murphy. So in this case, where you had Con Ed doing 
either upgrades or improvements or repair work, how is that 
cost distributed, and who pays for that work?
    Mr. Permut. Well, in this particular case, we had two 
separate contracts. There's a contract with NIPA, who was the 
project manager, and then we had a separate agreement with Con 
Edison to do the work necessary to allow us to do the work at 
the substation. The cost for that is borne by Metro-North in 
the agreement with Con Edison.
    Senator Murphy. You had some back and forth with Senator 
Blumenthal about the improvements that you're going to be doing 
along a portion of the line due early 2014 to create 
redundancies. And, Mr. Permut, you referred to ongoing 
discussions you're having about future options to increase 
redundancy, I assume, over the rest of the line. Can you just 
talk about what the options are to create redundancies along 
the other section of the line?
    Mr. Permut. Well, the other section is the section between 
Harrison and Pelham, which was powered by this Mount Vernon 
substation. And Mr. Ivey and I had agreed--our priority, 
obviously, was to get the service back, and then, as Mr. Ivey 
mentioned, to bring the second feeder back, which happened 
about 10 days ago.
    We also agreed that the next step was to review what the 
options are to provide additional redundancy in this section 
both during the second phase of this project at Mount Vernon as 
well as on a permanent basis, since this section will be 
different than the rest of the New Haven Line where you'll have 
that redundancy. So our engineering people have just started 
that discussion, and it would be premature for me to say right 
now it's this option or this option or this option.
    Senator Murphy. Give me a time frame. Give me a time frame 
of when a decision could be made and then, given the potential 
options, what the time frame would be for implementation.
    Mr. Permut. I think by the end of the year, we'll have a 
better sense of what the options are and what the time frame is 
that goes with that. I can't give you a good sense on how long 
it will take, because each option will have its own time frame 
and have its own implications. So we have to jointly look at 
that, and I don't want to prematurely say something that would 
turn out to be incorrect.
    Senator Murphy. Mr. Chairman, if you would allow me to ask 
one broader question while I have the panel----
    Senator Blumenthal. Sure.
    Senator Murphy.--in front of me. What we're really talking 
about here is the fact that we have a string that runs from 
Boston to Washington, D.C., and in a multitude of different 
ways, that string could be cut at any moment by a collision, a 
storm hitting a portion of the string, an electrical 
disturbance. And any time you cut that string, it essentially 
stops or greatly curtails service along the entirety of the 
stretch.
    And this isn't our only liability. We have numerous other 
liabilities. We've talked about the decaying state of the 
bridges along the line in Connecticut, which we hope is not the 
next shoe to drop.
    But here's the broader question. How on earth do we come up 
with the financing necessary to prevent the next crisis and the 
next interruption in service happening, when, today, our 
stretch of rail line is one of the few profitable ones for 
Amtrak, throwing off anywhere from $200 million to $300 million 
to the rest of the country, and we have a list of $50 billion 
worth of repairs along the full extent of the Northeast 
Corridor that need to be done over the next 10 to 20 years just 
to maintain the state of good repair? It seems to me that we 
have to be thinking out of the box in terms of how we come up 
with the money to allow you to invest in the kind of work that 
you need to do, above and beyond just the work that you're 
going to need to do to create redundancies along the electrical 
feeder system.
    So let me present that question to you, Howard, and then to 
you, Commissioner Redeker, to just give us a quick snapshot. 
And I know you could talk about this for the entire afternoon. 
But what are the financing mechanisms that we need to be 
talking about in the United States Congress to try to give you 
the resources to make the investments that you know you need to 
make and everybody knows you need to make?
    Mr. Permut. Senator, let me say I think that that 
discussion and the determination of fund sources is one for the 
U.S. Senate and for the Congress itself. I don't think it's the 
place of myself, either from an expertise standpoint or from a 
responsibility standpoint, to really identify within the 
national priority how that should be done.
    I will say--which is very concerning to us--that the last 
time Congress passed a bill, funding for transit was roughly 
flat. That bill runs out at the end of next year, and it's 
desperately needed, the money for both transit and Amtrak, for 
the railroads for transit and Amtrak. That's absolutely a 
critical requirement so we can address these needs.
    As the operator of the service, we can prioritize what our 
needs are. But in the end, it's the funding sources and the 
funding partners who will be critical in making that 
determination and making that happen.
    Senator Murphy. Commissioner Redeker?
    Mr. Redeker. Yes, thank you. It is a national dilemma, and 
I think that it's important to recognize that it is something 
that is being worked on through the Northeast Corridor 
Commission for the Northeast Corridor; certainly by Congress in 
terms of reauthorization of important legislation like PRIIA; 
and states, as members and, frankly, as operators.
    You mentioned that Amtrak makes some profit. But Amtrak has 
a huge need from an expense point of view. I think if we look 
at existing funding mechanisms, we know that they're inadequate 
to do the job that we've identified. And I think actions like 
the PRIIA Act that came up with some new solutions about cost 
allocation, you know, give us some new tools. But they too will 
be inadequate.
    What I think is important is that as we plan for the 
future, first, we identify a realistic amount of funding 
necessary annually to achieve a state of good repair--that's 
fundamental to this corridor so that it doesn't have these 
flaws--and invest those dollars smartly so that projects that 
are replacement or upgrades of an old infrastructure come with 
built-in redundancy. Clearly, the impact from storms--
Superstorm Sandy, as we face that anniversary--indicates that 
systems with redundancy, different routes, different 
alternatives, are important.
    We, as part of a national effort for the future of high-
speed rail, are looking at just that issue. Is there an ability 
to invest in that existing state of good repair, but also be 
looking at redundant or alternative systems to provide those 
options in the case of a tragic event or a storm or 
unanticipated outage?
    So I think if we pick the right number--because if we just 
say $52 billion without identifying what that means annually 
and where that might come from in any stretch of the 
imagination, be that from the operators, from the states, from 
the Federal Government--clearly, I think each one of those has 
a role to play. And what we've seen in other countries is the 
successful investments in a railroad infrastructure come from a 
Federal Government. It's a national asset, and the 
infrastructure itself is typically funded principally through 
the Federal Government.
    The capacity of states taking on more obligations is 
stretched, just as every other one. That's not going to be a 
full solution either. But I think a realistic number worked 
through annually is something that, if we put our minds 
together, we probably can achieve.
    Senator Murphy. I would just respectfully disagree with 
you, Mr. Permut. I understand maybe the discomfort that comes 
with proposing a policy solution as an operator. But I think 
the stakes are so grave here that you and your organization, 
knowing your customers and knowing the infrastructure better 
than anyone, should have a seat at the table and a leading seat 
at the table in proposing solutions. I know that that's not an 
easy thing to do when you're just trying to keep a line up and 
operating.
    Mr. Permut. Well, Senator, if I may, I think what's most 
important that we have to do is represent our customers and 
inform the dialog as to what's needed and what the implications 
are. We do advocate for our customers. We do advocate for the 
funding.
    What I was addressing, and possibly a little more narrowly 
than the question, was which is the best mechanism, be it a gas 
tax or something else, increasing the gas tax. I didn't feel, 
and I don't feel that it would be Metro-North's role to be 
putting forward that type of detail. Clearly, with regard to 
what the need is and advocating for the need and advocating for 
the customers, we will do that, and we have done that, and we 
will continue to do so.
    Senator Murphy. Final question to Commissioner Redeker. Let 
me just ask a hard question about choices. And you're talking 
about allocating enough money for new improvements to make sure 
that you build in redundancies. So let me just make sure that 
we're doing this right.
    You have a certain pot of money that could be used to 
increase speed or frequency of travel along an existing line, 
or perhaps not make as big an investment in speed and frequency 
and instead build a redundant system next to it. Are we always 
better off spending the additional money to build redundancy, 
or are we better off using that money to increase speed and 
frequency and just take the chance that the system may fail for 
a couple of hours or a couple of days, but that that will be 
offset by the increased delivery to consumers on the day that 
the system is running?
    And that is not a loaded question. I just think it's a 
worthwhile question to ask, given the fact that we do have 
limited money, and we're going to have to choose to use it 
either on building redundancy or on moving more quickly down 
the list of the projects that we know have to be done.
    Mr. Redeker. The answer from my perspective is that 
building simply a redundant system for the sake of redundancy 
is an expense. And I think it's been mentioned that it's 
extraordinary when it comes to infrastructure and out of the 
question, too expensive for us with the resources we have.
    But if we look at smart investments for the state of good 
repair, things that also bring travel time improvements, 
frequency and capacity improvements, and if we can at the same 
time, using the substations in Connecticut as an example, 
provide redundancy so that we spend the same dollars or just a 
little more when we do an investment to add redundancy, then we 
ultimately build a better system. So I think we have to look at 
that.
    The choices about priorities really do come, for me, from 
the proper economic cost-benefit investment scenario. We have 
to look at what are the costs and what are the benefits from 
every dollar we spend, so we choose to make the right 
investments. But I think if we do that and look at better, 
faster, cheaper ways to deliver projects, we might be able to 
add components like redundancy as we do them.
    Senator Murphy. Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Murphy.
    I want to come back to that larger question that Senator 
Murphy asked and really suggest, Mr. Permut and Commissioner 
and members of this panel and others, that there really is a 
need for leadership in this area. There's a need for specific 
proposals.
    I urge that there be an infrastructure bank as a means of 
providing that financing and, at the very least, that there be 
a national rail trust fund, as I mentioned earlier, similar to 
the Highway Trust Fund. To be very blunt, your customers, Mr. 
Permut, I think, have very little conception about how 
deteriorating and aging infrastructure is imperiling their 
service and, very possibly, their lives.
    They saw it back in May, when a derailment and collision 
caused grave injuries to more than 50 people and jeopardized 
lives and livelihoods for a substantial period of time. But 
they had no idea that the joints connecting two rails were 
weakened, and, in fact, the NTSB very likely will conclude that 
that infrastructure deterioration or decay was responsible for 
the derailment that eventually caused the collision. They had 
no idea that feeder cables were going through this maintenance 
and work beginning September 13.
    So the kind of information and awareness that we're trying 
to raise here in this hearing, I think, is very important for 
you and other leaders in the industry to raise in the course of 
public discussion and dialog. And the same goes for other 
members of the panel and others in the industry. So I would 
just make that observation, and I take it you don't necessarily 
disagree.
    Mr. Permut. No. I agree with you completely, and we will 
continue to inform the discussion, as you point out, the 
absolute critical need for investment in infrastructure on the 
New Haven Line. It's absolutely critical to the economic 
development, the future safe operation and the economic 
development.
    Senator Blumenthal. So let me just go back from that global 
line of questioning to more of the detailed questioning, 
because I want to go back to the backup or redundancy on the 
Metro-North line going through Connecticut. My understanding 
is--and I'm holding up a diagram here of the various 
substations. I know it's difficult to see, but there's Cos Cob, 
Sasco Creek, Devon, Union Avenue, and New Haven.
    Without going into the specifics of each of those 
substations and what their current status is, is the plan for 
there to be backup from one of these stations to the other, for 
example, Sasco Creek to Cos Cob, if one of them goes offline? 
In other words, if Cos Cob goes offline, would the backup be 
sufficient from one of the others--presumably Sasco Creek, 
because it's the nearest--to provide the kind of power that is 
necessary to avoid the fiasco or the debacle that occurred in 
New York?
    Mr. Permut. I understand. Once these two projects are 
completed, which will be by, again, the first quarter of 2014, 
the answer is yes.
    Senator Blumenthal. There would be sufficient power supply 
from these other substations to compensate for the alternative 
neighboring substation if it went offline?
    Mr. Permut. Yes.
    Senator Blumenthal. And, finally, Mr. Ivey, can you commit 
that you will provide the forensic analysis as soon as it's 
done to this committee?
    Mr. Ivey. We will, sir.
    Senator Blumenthal. And can you commit, also, that you'll 
provide the preliminary review? I know we've asked for it.
    Mr. Ivey. The review I think you're referencing was a New 
York Times article where they were just reporting our 
preliminary findings. There wasn't really a preliminary report. 
That was our preliminary findings at that time.
    Senator Blumenthal. So there's nothing in writing, no 
report?
    Mr. Ivey. It wasn't a report. It was preliminary findings 
at that time. I think the week--the Monday or Sunday right 
after the event occurred on September 25.
    Senator Blumenthal. I'm going to ask that we continue this 
discussion about the refund or reimbursement issue, because I 
don't think, again, with all due respect, I'm satisfied that 
Con Ed is doing as much as it should to provide for the 
monetary compensation to Metro-North or to others who may have 
been harmed. But we can continue that discussion after this 
proceeding.
    Thank you.
    Mr. Ivey. Thank you.
    Senator Blumenthal. I thank you all, and we'll move to the 
next panel.
    Our next panel will consist of John Hartwell, who is a 
member of the Connecticut Commuter Rail Council, a long-time 
advocate for Connecticut riders and consumers; Joseph Boardman, 
President and Chief Executive Officer of Amtrak, and a veteran 
as well as a chief executive of that company; and Mr. Joseph 
McGee, Vice President of Public Policy and Programs for The 
Business Council of Fairfield County, a long-time public 
servant and formerly an official of our state government.
    Welcome to you all and thank you very much for being here.
    We'll begin with you, Mr. Hartwell.

              STATEMENT OF JOHN HARTWELL, MEMBER, 
               CONNECTICUT COMMUTER RAIL COUNCIL

    Mr. Hartwell. Thank you, Senator Blumenthal and Senator 
Murphy. My name is John Hartwell, and I'm a member of the 
Connecticut Commuter Rail Council. Created by the state 
legislature, our mandate is to advocate for customers of all 
commuter lines in the state and make recommendations for 
improvements, a task that this Council and its immediate 
predecessor have undertaken for more than a quarter century.
    Our members come from commuter rail lines both currently 
operating and planned: the New Haven line, including its three 
branches; Shore Line East; and the future New Haven-Springfield 
line. And we serve without pay, budget, or staff.
    In the week following the resumption of full New Haven Line 
service after the Con Ed incident, I went to the Greens Farms 
station near where I live with three members of the Connecticut 
state legislature to talk with commuters about their experience 
during the service interruption. I used my background in market 
research to create and administer a survey, asking commuters 
what they did to cope with the disruption, how they felt about 
Metro-North's response, what they knew about the possibility of 
refunds, and how they rated their overall rail commuting 
experience.
    Two days later, I repeated this survey at the Westport 
station, gathering 67 responses overall, not enough for real 
statistical analysis, but certainly enough to get a sense of 
customer frustration. Commuters used a variety of strategies to 
cope with the reduced service. A few drove into the city or to 
an alternative station, had satellite offices they could go to, 
or worked from home. Most, however, made the best of whatever 
trains were available, often standing for more than an hour in 
packed cars to get to their destination.
    To put this in perspective, I-95 is already jammed during 
morning and evening rush hours. Metro-North customers have the 
highest fares and the lowest mass transit subsidy in the 
nation, and parking at the stations is limited and expensive. 
If you've paid for a monthly ticket and are lucky enough to 
have a train station parking pass, you want to make use of 
them.
    When asked about how Metro-North responded to the crisis, 
the most common rating was a three on a five-point scale, with 
the positives and negatives above and below evenly divided. 
Most who volunteered comments felt that Con Ed was to blame for 
the problem itself, but many said that communication from 
Metro-North about alternatives was poor. They understood that 
they needed to make allowances for a difficult situation, but 
they also wanted much more timely, accurate information so they 
could make rational choices.
    When asked what they knew about the possibility of refunds, 
most had heard the MTA was going to do something, but almost no 
one at that point had a clear idea of how it was going to work 
or what it was going to mean to them. And in terms of their 
overall satisfaction with Metro-North, they were somewhat more 
positive, a 3.3 on that same five-point scale, but far from 
satisfied.
    New Haven Line customers have experienced repeated service 
failures in the past few years, including Hurricane Sandy, 
Hurricane Irene, heavy snowfall in October, and ice storms in 
mid-winter. These were weather-related, but the derailment at 
Bridgeport last May clearly was caused by a deteriorating 
infrastructure that has left people worried and angry. And 
branch line customers are short-changed when their diesel 
engines are redeployed, leaving them with unreliable bus 
service operated by drivers who have no idea where they're 
going, or with no service at all.
    Under Governors Rell and Malloy, the state has spent huge 
amounts on new cars, which is terrific, and the Connecticut 
Department of Transportation has major renovation projects 
underway. But the fact remains that we are paying the price for 
years of deferred maintenance. Billions more are needed to 
upgrade or replace track, bridges and catenary, install better 
signal systems and positive train control, and give us real-
time communication.
    Commuter rail is the lifeblood of Fairfield County, and 
it's not just the traditional businessmen to Grand Central who 
are affected when the trains don't run. We have many customers 
who never leave the state, traveling every day to work from 
Danbury to Stamford, or Waterbury to Bridgeport, or Guilford to 
New Haven. And there are thousands more who reverse commute, 
including some who come up from New York City to work here.
    The railroad is fundamental to Connecticut's economy and to 
the quality of life that attracts so many who choose to live 
and raise families here. You've already been told about how old 
the infrastructure is, and you're going to hear about the 
economic impact of these disruptions, both in Connecticut and 
along the whole eastern seaboard corridor. One hundred years 
ago, this service was state-of-the-art. It should be again.
    I'd like to make one more point before I close about 
fairness. Two years ago, after another major service failure, 
the Council proposed a Passenger Bill of Rights, which I've 
attached to my testimony. It called, in part, for monthly and 
weekly ticket holders to receive a credit whenever Metro-North 
couldn't provide either scheduled train service or a bus 
substitute. To us, at that time, the problem was 
straightforward. If you don't get what you paid for, you should 
get your money back.
    I'd like to applaud Governor Malloy's leadership during 
this current crisis in prompting the MTA to offer a credit to 
monthly and weekly ticket holders, and I hope that our 
representatives in Hartford can work together to make this a 
permanent policy. More than 50,000 taxpayers who ride the 
trains every day deserve no less.
    Thank you. [The prepared statement of Mr. Hartwell 
follows:]

             Prepared Statement of John Hartwell, Member, 
                   Connecticut Commuter Rail Council
    Good morning. My name is John Hartwell, and I'm a member of the 
Connecticut Commuter Rail Council. Created by the state legislature, 
our mandate is to ``advocate for customers of all commuter lines in the 
state and make recommendations for improvements,'' a task that this 
Council and its immediate predecessor have undertaken for more than a 
quarter century. Our members come commuter rail lines both currently 
operating and planned--the New Haven line, including its three 
branches, Shore Line East, and the future New Haven--Springfield line, 
and we serve without pay, budget, or staff.
    In the week following the resumption of full New Haven line service 
after the Con Ed problem, I went to the Greens Farms station near where 
I live with three members of the Connecticut state legislature to talk 
with commuters about their experience during the service interruption.
    I used my background in market research to create and administer a 
survey, asking commuters what they did to cope with the disruption, how 
they felt about Metro-North's response, what they knew about the 
possibility of refunds, and how they rated their overall rail commuting 
experience. Two days later I repeated this survey at the Westport 
station, gathering sixty-seven responses overall. Not enough for real 
statistical analysis, but certainly enough to get a sense of customer 
frustration.
    Commuters used a variety of strategies to cope with the disruption. 
A few drove into the City or to an alternative station, had satellite 
offices they could go to, or worked from home. Most, however, made the 
best of whatever trains were available, often standing for more than an 
hour in packed cars to get to their destination.
    To put this in perspective, I-95 is already jammed during morning 
and evening rush hours, Metro-North customers have the highest fares 
and lowest mass transit subsidy in the nation, and parking at the 
stations is limited and expensive. If you've paid for a monthly ticket 
and are lucky enough to have a train station parking pass, you want to 
make use of them.
    When asked about how Metro-North responded to the crisis, the most 
common rating was a ``3'' on a five point scale, with the positives and 
negatives above and below evenly divided. Most who volunteered comments 
felt that Con Ed was to blame for the problem itself, but many said 
that communication from Metro-North about alternatives was poor. They 
understood that they needed to make allowances for a difficult 
situation, but they also wanted much more timely, accurate information 
so they could make rational choices.
    When asked what they knew about the possibility of refunds, most 
had heard the MTA was going to do something, but almost no one at that 
point had a clear idea how it was going to work or what it meant to 
them. And in terms of their overall satisfaction with Metro-North, they 
were somewhat more positive (3.3 on that five point scale) but far from 
satisfied.
    New Haven line customers have experienced repeated service failures 
in the past few years, including Hurricane Sandy, Hurricane Irene, 
heavy snowfall in October, and ice storms in mid-winter. These were 
weather-related, but the derailment at Bridgeport last May clearly was 
caused by a deteriorating infrastructure that has left people worried 
and angry. And branch line customers are sometimes short-changed as 
their diesel engines are redeployed and they're left with unreliable 
bus service with drivers who have no idea where they're going, or with 
no service at all.
    Under Governors Rell and Malloy the state has spent huge amounts on 
new cars, which is terrific, and ConnDOT has major renovation projects 
underway, but the fact remains that we are paying the price for years 
of deferred maintenance. Billions more are needed to upgrade or replace 
track, bridges, and catenary, install better signal systems and 
positive train control, and give us real-time communications.
    Commuter rail is the lifeblood of Fairfield County, and it's not 
just the traditional commuters to Grand Central who are affected when 
the trains don't run. We have many commuters who never leave the state, 
traveling every day to work from Danbury to Stamford, or Waterbury to 
Bridgeport, or Guilford to New Haven. And there are thousands more who 
reverse commute, including some who come up from New York to work here.
    The railroad is fundamental to Connecticut's economy and to the 
quality of life that attracts so many who choose to live and raise 
families here. You've already been told about how old the 
infrastructure is, and you're going to hear about the economic impact 
of these disruptions, both in Connecticut and along the whole eastern 
seaboard corridor. One hundred years ago this service was state-of-the-
art. It should be again.
    I'd like to make one more point before I close, about fairness. Two 
years ago, after another major service failure, the Council proposed a 
``Passenger Bill of Rights'', which I've attached. It called in part 
for monthly and weekly ticket holders to receive a credit whenever 
Metro-North couldn't provide either scheduled train service or a bus 
substitute. To us at that time the problem was straightforward--if you 
don't get what you paid for you should get your money back.
    I'd like to applaud Governor Malloy's leadership during the current 
crisis in prompting the MTA to offer a credit to monthly and weekly 
ticket holders, and I hope that our representatives in Hartford can 
work together to make this a permanent policy. More than fifty thousand 
taxpayers who ride the trains every day deserve no less.
    Thank you.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    

    Senator Blumenthal. Thank you, Mr. Hartwell.
    Mr. Boardman?

STATEMENT OF JOSEPH H. BOARDMAN, PRESIDENT AND CHIEF EXECUTIVE 
                        OFFICER, AMTRAK

    Mr. Boardman. Thank you, Senator Blumenthal and Senator 
Murphy.
    Senator Blumenthal, your focus on this disruption in and of 
itself should serve as a wake-up call to what would happen if 
we had an issue at one of the Northeast Corridor's many single 
points of failure. Thank you for your leadership on the issue. 
I believe your investigation and your leadership will help to 
demonstrate the absolute need for all of us to stop taking this 
vital infrastructure for granted and start investing in the 
future of the region and the nation.
    Amtrak operates and maintains 401 miles of the 457-mile 
Northeast Corridor, and we work closely with Metro-North, which 
operates and maintains the other 56 miles. The Northeast 
Corridor serves a region that houses more than a sixth of the 
Nation's population and generates $1 out of every $5 of our 
gross domestic product on less than 2 percent of the country's 
land area.
    The Northeast Corridor is a transportation asset of 
national importance. Its bridges, tunnels, electrical supply, 
signal systems, rails, and roadbeds are all aging and failure 
prone and lacks redundant systems to keep it operating in the 
event of failure. We've heard about that all morning.
    The incident we are here to discuss demonstrates the 
consequences of such a failure. But we have many points of 
failure that would demonstrate similar consequences or even 
greater, longer-lasting consequences, particularly if they came 
at one of the many critical points, or single points of 
failure, in the states of Connecticut, New York, or New Jersey.
    I'm talking about a single point of failure where it's a 
part of the system that, if it fails, will stop the entire 
system from working, like the string being cut, Senator Murphy. 
In its current state, our system faces the threat of a major 
failure--with comparable impacts to this incident in terms of 
disruption--on a daily basis, for much of our infrastructure is 
aging and heavily trafficked, while capital investment has 
lagged.
    Between Superstorm Sandy, infrastructure failures, snow 
storms, and other service disruptions, Amtrak's services that 
use the Northeast Corridor lost a total of about 360,000 riders 
and $37 million in Fiscal Year 2012. The lost riders and 
revenues are the clearest record of the problem of aging and 
decaying infrastructure.
    The ugly truth is that our national failure to invest in 
the common good of our national infrastructure is eroding the 
serviceability of this railroad, our highway system, our 
aviation industry, our transit systems, our ports, and our 
utilities. And as a result, it's eroding the confidence of our 
future sense of national well-being.
    The NEC has suffered from decades of unmitigated deferrals 
of investment needs and reductions in our planned capital 
investment programs. The result is a complicated process of 
compounding deterioration. Consequently, today, we have an 
infrastructure that while safe--and it is safe--is vulnerable 
to service disruptions at virtually any time and place. And the 
vulnerability is highest, as Superstorm Sandy demonstrated, at 
the points where congestion is greatest and redundancy is 
nonexistent.
    Amtrak and Metro-North both suffer from the same basic 
challenge. Since we took over this line in the 1970s, business 
and traffic have grown, but investment has not kept pace. 
Amtrak knows what it needs for the Amtrak-owned segments of the 
Northeast Corridor. Amtrak needs $782 million per year in 
today's dollars to bring the infrastructure into a state of 
good repair every year for the next 15 years. And we must be on 
an equal footing with the capital planning formulas for the 
highway and transit systems.
    The planning for intercity rail is poorly executed because 
the investments are considered by congressional appropriators 
on a year-to-year budget basis, rather than funding the program 
as the highway and transit programs are. In Fiscal Year 2012 
and Fiscal Year 2013, the total funding level was about half of 
that needed, and Amtrak is always subject to deficient levels 
of planning because of the lack of predictable funding on a 
multiyear basis.
    This level and method of investment isn't enough to sustain 
an aging system that's coping with record levels of traffic. 
There are several processes that are now in place that we hope 
will allow us to harness the support of the states with the 
Federal investment in the Northeast Corridor.
    The process of asset aging is irreversible. At some point, 
everything needs replacement, and replacement is feasible only 
if adequate funding is available. And for Amtrak, as for Metro-
North, funding on the required scale will have to come from a 
strong coalition that involves the Federal government, the 
states, the users of the Northeast Corridor, local government, 
and the private sector where it makes sense.
    We must not take this vital infrastructure for granted. 
Instead, we must start investing in the future of the region 
and the Nation with multiyear investments that will demonstrate 
our own faith in the future of our nation.
    Thank you. [The prepared statement of Mr. Boardman 
follows:]

          Prepared Statement of Joseph H. Boardman, President 
                  and Chief Executive Officer, Amtrak
    Thank you very much for the opportunity to testify today.
    Amtrak operates and maintains 401 miles \1\ of the 457 mile 
Northeast Corridor (NEC), and we work closely with Metro-North, which 
operates and maintains the other 56 miles. The NEC serves a region that 
houses more than a sixth of the Nation's population, and generates $1 
out of every $5 of our gross domestic product on less than 2 percent of 
our country's land area. While our line is a transportation asset of 
national importance, it is aging and failure prone, and lacks redundant 
systems to keep it operating in the event of failure. While the 
incident we are here to discuss was not necessarily an infrastructure 
failure, the consequences of such a failure would be similar, 
particularly if they came at one of the many critical points, or 
``single points of failure,'' in the states of Connecticut, New York, 
or New Jersey. A single point of failure is a part of a system that, if 
it fails, will stop an entire system from working. In its current 
state, our system faces the threat of a major failure--with comparable 
impacts to this incident in terms of disruption--on a daily basis, for 
much of our infrastructure is aging and heavily trafficked, while 
capital investment has lagged.
---------------------------------------------------------------------------
    \1\ Includes 37 miles in Massachusetts that are owned by 
Massachusetts Bay Transit Authority but maintained and dispatched by 
Amtrak.
---------------------------------------------------------------------------
    Amtrak owns 122.5 miles of rail line in Connecticut and we have 
invested heavily in the state over the last two decades. In 2000, we 
finish the electrification of the 156 mile segment between New Haven 
and Boston with $2.6 billion in Federal funds, and we also have 
invested nearly $300 million to replace several bridges in recent 
years, such as the replacement of the movable portion of the Thames 
River Bridge in New London. Some of these projects were completed as 
part of the American Recovery and Reinvestment Act, which provided us 
with a substantial infusion of funding in 2009, and we invested more 
than $167 million in the state of Connecticut to improve every aspect 
of our railroad.
    As you probably know, Amtrak also does a lot of business in the 
state of Connecticut, which is served by our Northeast Corridor and 
Springfield Line trains. We operate 46 daily trains, including Acela, 
Northeast Regional, Vermonter, and Springfield Shuttle services. Last 
year, we carried more than 1.7 million people to or from stations in 
Connecticut, and we employ 680 residents with a total payroll of more 
than $51 million. We spent another $51 million on goods and services in 
the state in 2012, $11 million of that right here in Bridgeport.
    As you would expect, we work closely with the Connecticut 
Department of Transportation, who we are pleased to add as a new state 
partner under a Federal-state cost sharing methodology that went in 
effect in October for service on the line to Springfield, MA. We also 
work very closely with Metro-North Railroad, which is, on the basis of 
train mileage, our sixth largest host railroad--which might not seem 
impressive, until you stop to consider that Metro-North hosts Amtrak 
trains for only fifty-six miles, while some of our services run on host 
railroad tracks for trips of up to 2,400 miles. It's a busy line, 
carrying 48 of our trains and about 300 Metro-North trains on a typical 
weekday. We are vividly aware of the challenges Metro-North faces in 
maintaining an aging and heavily used railroad, because these are our 
challenges, too. For Metro-North, as for Amtrak, the reality is that we 
are stewards of an aging infrastructure system that requires increasing 
levels of investment just to maintain the existing level of service; 
faster or more frequent service requires even more. Consequently, when 
we get a service disruption caused by a point of failure on this 
infrastructure, it can be costly and prolonged. The recent Metro-North 
shutdown is a case in point. Because of it, we were unable to offer 
Acela service between Boston and New York City. The Acela trains are 
what we call ``integral train sets,'' with the electric locomotives 
permanently joined to the coaches, so we can't swap out a diesel engine 
if the power system fails. That meant cancelling those trains, and 
since approximately 72 percent of all Acela riders on the North End of 
the NEC are travelling between the three Boston area stations and New 
York Penn, we lost about 18,300 Acela riders. Fortunately, we were able 
to run the Regional trains behind diesel power over Metro-North, so we 
actually picked up some 6,300 riders on the Regionals (a likely 
spillover effect from cancelled Acelas), which reduced our net 
ridership impact to 12,000.This ridership ``bump'' produced an 
offsetting gain of about a half a million dollars in Regional revenue, 
leaving us with a net financial impact of $2 million. Acela service was 
completely halted for six days, and we were not able to resume a full 
slate of scheduled services for another six days. This disruption was 
of slightly longer duration than usual--but it is by no means unique. 
The blocking of all service on the line in the wake of the derailment 
and collision on Metro-North in May cost us about $4 million in revenue 
losses, and a freight derailment in New Haven, on Amtrak's 
infrastructure, cost about $700,000 in lost revenue in March.
    The lost riders and revenues are the clearest manifestation of the 
problem of aging and decaying infrastructure. This process, which is 
continual, is gradually eroding the serviceability of the railroad as 
underfunding takes its toll. To get some idea of what the consequences 
of underfunding are, I asked our Chief Engineer to study the problem of 
decapitalization earlier this year, because the NEC has suffered from 
decades of unmitigated deferrals of investment needs and reductions in 
our planned capital investment programs. The result is a complicated 
process of compounding deterioration. When we defer maintenance on one 
part of the infrastructure, we see that other effects that show up in 
areas of the infrastructure where we might not otherwise have had a 
problem. For example, where tunnel deterioration is an issue, we find 
that one of the effects can be greater corrosion of the rails, which 
correlates strongly to tunnel condition. When we find problems, we can 
either address them in large, comprehensive programs, or we can do spot 
repairs. Large programs cost more, of course, but the unit cost is 
significantly lower than the unit cost for spot repairs. Unfortunately, 
when we don't have enough money for the larger programs we need, we 
have no choice but to go with spot repairs. But spot repairs don't 
renew the infrastructure or prevent further decay--they simply fix the 
problems that affect day-to-day operations and safety. But as the 
infrastructure continues to deteriorate, you have to do more spot 
repairs, which in turn consume more resources. And we have an 
infrastructure that, while safe, is vulnerable to service disruptions 
at virtually any time and place--and the vulnerability is highest, as 
Super Storm Sandy demonstrated, at the points where congestion is 
greatest and redundancy is nonexistent. While I have spoken principally 
about the Amtrak-managed segments of the railroad, these cannot be 
disaggregated from the larger problem of disinvestment. Amtrak and 
Metro-North both suffer from the same basic challenge: since we took 
over this line in the 1970s, business and traffic have both grown, but 
investment has not kept pace. Consequently, we are running more and 
more service on a line that is now several decades older--but major 
components of that line should have been replaced years ago.
    To address this need, Amtrak studied state of good repair 
investment needs for the Amtrak-owned segments of the NEC in 2011. At 
the time, our proposal envisioned the spending of about $782 million 
per year in today's dollars, to bring the infrastructure into a state 
of good repair by 2026. Unfortunately, funding has not been available, 
and in FY 2012 and 2013, the total funding level was about half of that 
need. It simply isn't enough to sustain an aging system that's coping 
with record levels of traffic.
    There are several processes that are now in place that we hope will 
allow us to harness the support of the states with the Federal 
investment in the NEC. I am hopeful that the ongoing Section 212 
process, mandated by the 2008 Passenger Rail Investment and Improvement 
Act, will allow us to continue the process of building a collaborative 
relationship with the states to better manage and fund the NEC. The 
Northeast Corridor Commission's excellent report on ``Critical 
Infrastructure Needs on the Northeast Corridor,'' published earlier 
this year, outlines the need: the challenge ahead of us is balancing a 
growing demand for the services of all of the NEC's users with the 
needs of the infrastructure. It is old and aging, and the process of 
asset aging is irreversible: at some point, everything needs 
replacement, and replacement is feasible only if adequate funding is 
available--and for Amtrak, as for Metro-North, funding on the required 
scale will have to come from a strong coalition that involves the 
Federal government, States, users of the NEC, local government and the 
private sector where it makes sense. This disruption should serve as a 
wakeup call to what would happen if we had an issue at one of the NEC's 
many single points of failure. We must stop taking this vital 
infrastructure for granted and start investing in the future of the 
region and the Nation. And we must not only address the current 
vulnerabilities, but also provide the capacity that is urgently 
needed--not just for the decades of growth we expect to see, but the 
ongoing growth that is stretching a fragile and vulnerable but 
nevertheless vital transportation system.

    Senator Blumenthal. Thank you, Mr. Boardman.
    Mr. McGee?

          STATEMENT OF JOSEPH McGEE, VICE PRESIDENT, 
            THE BUSINESS COUNCIL OF FAIRFIELD COUNTY

    Mr. McGee. Good morning, Senator Blumenthal and Senator 
Murphy. My name is Joseph McGee, and I represent the Business 
Council of Fairfield County. Our members include businesses 
both in Stamford as well as in Fairfield County. We estimate 
that over 5,000 of our employees of member companies come to 
work by train.
    I want to summarize my testimony and shift a bit after 
listening to this presentation this morning. While the economic 
impact of the Con Ed outage is significant, the 11-day 
disruption, in reality, focuses on our need to understand the 
potential vulnerabilities of the New Haven Line and their 
impact on the economy of Connecticut and the U.S.
    I want to just parenthetically say what's interesting to me 
this morning is I had chaired the Two Storm Panel for Governor 
Malloy. We had 9 days of hearings and 100 witnesses on the risk 
to Connecticut for extreme weather. At the time, we looked at 
the railroad, and it was very clear that this was an area of 
huge vulnerability, because it runs along the coast.
    But what was very interesting in that testimony--you know, 
it was a year and a half ago now--was that the New Haven Line 
is either the single largest energy user or the second largest 
energy user in the state of Connecticut. And at that time, when 
we asked the utilities what was the nature of their interaction 
with the rail system in terms of energy efficiency, it was 
surprising. The railroad had not used any of the state 
incentives for energy efficiency at that time, and a red flag 
went off.
    When I began looking at this whole issue of risk on the 
rail line, which came up this morning, this issue of redundancy 
needs to be clearly understood. The view that was presented 
here is that we have like a Christmas tree line, right, and if 
one bulb goes out, the line goes out. But maybe if we have a 
redundant system, if a bulb goes out, the line stays on.
    The reality is that if you look at the standard for 
financial services which you require, we have tertiary backup. 
So we protect our financial data and the movement of it with 
three systems, primary, secondary, and tertiary. In the 
movement of people to work, we have a system that is 
essentially a primary system with a questionable level of 
redundancy. And that raises a very serious question on this 
whole issue of energy policy, vis-a-vis, the railroad.
    If you look at the state of Connecticut right now, we're 
looking at micro grids for areas of communities so that in a 
storm, critical resources can come back to power quickly. We 
learned in the storm that our telecommunication system had 
battery backup that lasted 2 days. In a 10-day outage, how does 
that work?
    So when you're looking at this issue--and I would really 
encourage the Senate committee to look very carefully at this 
issue of electric power and redundancy, vis-a-vis, the rail 
system, and the whole issue of a large system funded through 
large-scale power versus micro grids and the advantage of power 
delivered in a different way.
    This is a really big deal, and it gets very short shrift. 
But it goes to the heart of can this system survive a risk of 
severe weather or just human screw-up? It's a big deal. I don't 
think it was adequately addressed this morning.
    On this issue of infrastructure--and I know it's a money 
issue, but it's kind of like, ``Well, we need so much money, we 
need so much money. I didn't really want to put the secondary 
system in place because it would have cost money.'' I'd like to 
know what Howard's answer would be after what he went through 
on his risk analysis of making that decision.
    There's a lot of finger pointing of who was responsible. 
Con Ed says to you today, ``Well, yes, it was our equipment, 
but it was the customer who made us do it. Therefore, I don't 
think I should be responsible for paying customers for their 
lost time at work.'' There's the beginning of a finger pointing 
here over a much bigger question: How is this going to work? 
Who is responsible?
    I'll conclude on this note. In looking at the state of good 
repair, we know that the New Haven Line needs about $3 billion 
to bring it up to a state of good repair--the 100-year-old 
bridges, the catenary system, the control system. We haven't 
heard what it's going to take to bring the New York side up to 
a state of good repair. That number could be $3 billion, $4 
billion, $5 billion.
    One of the issues here is while there is a capital plan for 
the New Haven Line, we in Connecticut always hear about the 
Connecticut side of this. But in the business community, we're 
interested in how the whole line works. What's the investment 
required for the whole system?
    Let me put this in context. Right now, today, the New Haven 
Line, the single busiest rail line in America, is at 70 percent 
capacity. It's estimated that within 20 or 25 years, it'll be 
at 100 percent capacity. That means we'll be congested on the 
rail line. We have congested highways. We will, in a very short 
period of time, have congested railways.
    The rail system is the single economic driver for Fairfield 
County. If you look at what has happened in downtown Stamford, 
it is the rail system. The most expensive property in 
Connecticut, in Stamford, is now around the train station. 
Twenty years ago, it was up by the Merritt Parkway.
    The growth of our downtown housing market and the 
employment labor force has seen 10,000 new residents in 
downtown Stamford. That group of urban professionals is tied to 
the rail system. So this rail system is the economic driver of 
Fairfield County, of Stamford, and the state of Connecticut.
    When you tell us that we have a $3 billion backlog on state 
of good repair, and then you don't lay out to us--well, what 
does the future look like? As we grow the economy in 
Connecticut, we have to expand the capacity of this rail line. 
Where is the plan for that? All we talk about is a state of 
good repair. This system needs to be running much more 
frequently.
    Parenthetically, if New Haven was only an hour from New 
York by train, it revitalizes New Haven. If Bridgeport was 45 
minutes from New York, it revitalizes Bridgeport. If Stamford 
was 30 minutes instead of 46, it's an economic boom. If we want 
an economic driver for the state of Connecticut, it's improved 
and more frequent and faster rail service.
    So this hearing this morning, while I applaud you for 
having it, really raises some fundamental issues about our 
commitment to economic growth in the state of Connecticut tied 
to a rail system which all operators admit is behind the times, 
is archaic, and out of date. I think there's an urgency here 
that needs to be felt. If we're going to grow the economy here, 
this has got to be fixed.
    The bottom line is $3 billion right now on the Connecticut 
side is a hefty investment in a state with the highest per 
capita debt in the Nation. So there has to be a role for 
Boardman and Amtrak in paying their fair share for the 
Connecticut experience. I'm using the rail in Connecticut.
    And I'll end on that note. Thank you.
    [The prepared statement of Mr. McGee follows:]

   Prepared Statement of Joseph McGee, Vice President, The Business 
                      Council of Fairfield County
    Good morning, Senator Blumenthal, Senator Murphy and members of the 
Committee, I am Joseph McGee, Vice President of The Business Council of 
Fairfield County. The Business Council's members include businesses in 
Stamford and throughout Fairfield County.
    While the economic impact of the Con Edison outage is significant, 
the 11 day disruption in reality focuses our need to understand the 
potential vulnerabilities of the New Haven Line and their impact on the 
economy of Connecticut and the U.S.
    Commissioner Redecker in testimony before this Committee last April 
stated that the Northeast Corridor (NEC) generates $1 out of every $5 
in U.S. gross domestic product and that one out of three Fortune 100 
companies are headquartered within close proximity to the NEC rail 
system. The Northeast Corridor (NEC) in which the New Haven Line is a 
46 mile segment is a major national economic driver.
    On a regional level, ridership on the New Haven Line has surpassed 
a record 38.8 million total rides in 2012. Of equal importance, while 
ridership from Stamford to Grand Central on a daily basis has increased 
to 9,243 passengers, daily commuters to Stamford now exceed those 
commuting to NYC. That shift in daily commuter destinations reflects 
the emergence of Fairfield County as a regional economic center in its 
own right not just a group of bedroom communities for Manhattan 
executives.
    On a local level, property in proximity to the Stamford railroad 
station is the highest assessed property in the city. Twenty five years 
ago corporate campuses in North Stamford near the Merritt Parkway were 
the most valuable. However, today the New Haven Rail Line is the key 
transportation investment that powers the Fairfield County economy and 
the emergence of a dynamic and growing corporate and residential 
housing market in downtown Stamford.
    In a 2013 demographic analysis of the Downtown Stamford residential 
market, the Stamford Downtown Special Services District reported that 
80 percent of its residents had a 4 year college degree and 40 percent 
of that group had an advanced degree. For comparison, Connecticut's 
workforce, the most educated in the U.S. has a 36 percent college 
degree achievement level. This highly educated labor force which 
numbers close to 10,000 and will double over the next 6 years is 
choosing Stamford because it fun, convenient and close to rail. In fact 
of the 6000 housing units in Downtown, 60 percent studio or one bedroom 
and 40 percent 2 bedrooms the actual car per unit is just under one per 
unit, far different than a suburban standard of more than 1.5 cars per 
residence. This young professional population is the labor force that 
corporations covet and provides Stamford and Connecticut with an 
economic competitive advantage but it must be understood that it is 
highly mobile and thrives in a high quality urban environment. Reliable 
rail service with frequent service to NYC is the critical element in 
the downtown Stamford construction boom.
    Consequently, estimates of the economic damage to Connecticut as a 
result of the recent Con Edison outage while dramatic are not 
surprising. The Connecticut Department of Economic and Community 
Development (CT DECD) estimates \1\ a $62 million loss in state GDP 
from the outage, which includes approximately $5.3 million in lost 
industry sales, $3 million in addition production costs (incurred by 
the need to run diesel trains and busses), and $2.25 million in 
aggregated reallocation of spending by consumers. Finally an estimated 
$14.94 million amenity and time value loss (included in the DECD's 
overall $62 million figure) represents a cost in travel time, 
alternative transport methods, fuel and wage hours incurred not only by 
regular rail commuters, but also by highway users. Failure of the New 
Haven Line affected all travelers and industries in the region.
---------------------------------------------------------------------------
    \1\ Connecticut Department of Economic and Community Development. 
``An Evaluation of the Con Edison Power Outage on the Metro-North 
Railroad New Haven Line: A Department of Economic and Community 
Development Economic Impact Analysis (EIA).'' Available at: 
www.courantblogs.com; Accessed: 10/23/13.
---------------------------------------------------------------------------
    When surveyed last week about the impact of the outage on their 
companies, the common theme that emerged was best summed up by Purdue 
Pharma, ``We moved to Stamford. The rail road was a big part of the 
decision and we have invested considerable resources to encourage our 
employees to use it.''
    Overall our members initiated resiliency measures that allowed them 
to function during the outage. However, members of our Transportation 
Roundtable have grown increasingly concerned about the need to insure 
that the New Haven line operates at a state of good repair.
    While we recognized that the State of Connecticut and the Federal 
Government have invested significant dollars in the New Haven line over 
the last 5 years, estimates that the Connecticut portion of the rail 
line needs over $3 billion to simply bring it up to a state of good 
repair are chilling. Four bridges in Fairfield County that are over 100 
years old on the busiest single rail line in America raise serious 
questions of the risk of a catastrophic failure. The question of course 
is how to pay for the investment in the New Haven Rail Line? 
Connecticut's current capacity to fund $3 billion in rail improvements 
is highly problematic. This situation demands a national response. 
Amtrak's role and the appropriate level of their support for rail 
improvements on the New Haven line needs a full airing.
    Investment in Connecticut's rail infrastructure would provide the 
single largest boost to our state's economic growth.

    Senator Blumenthal. Thank you. Thank you to each of you for 
your very helpful and illuminating testimony.
    Mr. McGee, you may not know, but I actually have supported 
the idea of improving our rail system so as to enable an hour 
trip from New Haven to New York and 45 minutes from Bridgeport 
to New York. I agree, as well, that that would really empower 
and enable tremendous economic growth throughout Fairfield 
County and Connecticut as well.
    Mr. McGee. Senator, if you could do an economic analysis of 
that investment--you know, it's curious. We do an economic 
analysis when the system fails. It costs us $62 million or it 
costs us $8 million when it fails. We'd love to see an economic 
analysis done of the impact of investment in the New Haven Line 
and what it would mean to the Connecticut economy. That could 
be a very powerful driver of public opinion on this issue.
    Senator Blumenthal. Now, you may know that Metro-North has 
taken the position that it is impossible. I'm not sure whether 
I'm quoting exactly the Metro-North spokesperson. But my belief 
is that not only is it possible, but it will come someday that 
we will see that kind of rapid rail service on this line with 
sufficient investment. That's the condition, that there be 
sufficient investment. And I'd be very interested in your 
economic analysis.
    Mr. McGee. Senator, you know, it's really interesting that 
New York City is building a whole new station under Grand 
Central. I think it's going to cost $12 billion. So we're 
bringing riders in from Long Island now. They used to go to 
Penn Station--half of them now coming to Grand Central. It's 
cutting 20 minutes off their trip into Manhattan--$12 billion. 
D'Amato got that rolling as a challenge--Senator Pothole--did 
great work in getting the Federal funding for that station.
    That begins to put us at a disadvantage competitively. We 
have not increased our speeds to Manhattan in 50 years. And to 
say simply that we can spend $12 billion in New York to create 
the eastside access, but we can't fix the tunnels for the New 
Haven Line--this is not acceptable.
    Does that mean we're at the end of the economic line here? 
Long Island and New Jersey can make these investments, but we 
can't make these investments in New York to benefit the 
Connecticut line? That's a serious question.
    Senator Blumenthal. Mr. Hartwell, let me ask you for, 
number one, perhaps your description of the impacts of this 
disruption in service on the lives of commuters, but also the 
very positive impacts that this kind of expanded or enhanced 
service would provide to them.
    Mr. Hartwell. Thank you, Senator. It's clear that at the 
individual level, there were tremendous impacts on people's 
lives. But most of them simply soldiered through it. I talked 
to people who had been commuting 10, 15, 20--actually one man 
for 40 years on the railroad. All of them said that the service 
is better today than it used to be. They understood that this 
was a big problem, and many of them simply, as I said, 
soldiered through it, because they had to get to work. So they 
did what they had to do to get to work.
    Would they like more service? Absolutely. We have the new 
cars, for example, which are really very nice cars. But, by the 
way, each one of them carries fewer passengers than the old 
cars. So scheduling is now a problem. There are trains now that 
used to run with seats available that no longer have seats 
available because they're running the same number of cars with 
fewer seats.
    These sorts of things have to get worked out. As Joe said, 
the railroad is the lifeblood of Fairfield County. And if we 
were looking for more service, for example, we should have what 
some people call subway service, meaning a train that comes so 
often on a local basis that you wouldn't need a schedule. You 
would simply go to the train station and know that if you 
wanted to get from Greens Farms to East Norwalk, you could do 
so with a reasonable expectation of spending only 10 or 15 
minutes at the station, and you wouldn't need to be carrying a 
schedule with you.
    Those sorts of things, nobody is talking about, because 
we're only talking about trying to fix the problems. But there 
is a tremendous amount of up-scale capacity here if we could 
bring it online.
    Senator Blumenthal. And I think people often fail to 
realize that the connectivity, the interdependence of the 
line--it's a lifeblood, but in a way it's more like an artery. 
If an artery is blocked at some point, the whole body fails.
    Mr. Hartwell. Let me give you just one quick example if I 
might. The three branch lines--if you are on the Danbury line, 
all the trains in the morning run north to south, because right 
now, we can only put one train on a line at the time because 
there isn't positive train control. Now, that's supposed to be 
coming. But there also aren't enough places for trains to pass 
each other.
    So what's the import of that? If you live in Bridgeport or 
in Norwalk, you can't take the train in the morning to Danbury. 
You would have to wait until all of the morning passengers who 
are coming down--there are three trains coming down. Same thing 
on the Waterbury line.
    So there isn't this kind of connectivity that you would 
expect to have with this basic piece of infrastructure here. 
It's still too limited. So those are things, again, that no one 
is talking about, but that could provide a lot of internal 
economic development in the state.
    Senator Blumenthal. I want to join, by the way, in your 
expressing appreciation to Governor Malloy and to Commissioner 
Redeker for their commitment to improving infrastructure as 
they did by investing in the new cars that, very likely, helped 
to save lives as a result of the derailment and collision that 
occurred back in May.
    Mr. Boardman, talking about interdependence or 
connectivity, obviously, Amtrak uses these rails. I cited 
earlier--I think you were here--the figure of $64 million 
invested in the past 10 years out of the $3.2 billion that has 
been invested in the stretch of track. Wouldn't it be fair to 
expect Amtrak to invest more?
    Mr. Boardman. Yes.
    Senator Blumenthal. Can you commit that you will work 
toward providing a larger share?
    Mr. Boardman. If you commit, Senator, we'll commit, because 
the bottom line is we receive our funding from the Federal 
government. And as Senator Murphy talked about a few minutes 
ago, we're spending off operating money off the Northeast 
Corridor in the neighborhood of $200 million to $300 million. 
I'll use your numbers. That goes to support long distance 
trains. It doesn't go to reinvest in the Northeast Corridor. It 
doesn't go for capital. It goes to show a lower subsidy for 
Amtrak, which shouldn't even be considered subsidy.
    It's an availability for transportation the same way that 
you maintain interstate highways or that you maintain an air 
traffic control system or a port. And yet go back to 1971 when 
this was created, when Amtrak was created, and it was created 
with the idea of a subsidy because this was supposed to be a 
profit-making railroad, even though no railroads had made money 
with passenger transportation. So we believe more needs to go 
into Connecticut, Massachusetts, Rhode Island, New York, New 
Jersey, and even those states south of New York and south of 
this area.
    Senator Blumenthal. Wherever it comes from, in other words, 
Connecticut and the Northeast deserve a fair share.
    Mr. Boardman. Absolutely.
    Senator Blumenthal. Thank you.
    Senator Murphy?
    Senator Murphy. Thank you, Mr. Chairman, again for allowing 
me to ask a few questions.
    Mr. Boardman, can you talk a little bit about what the 
standard for redundancy along the portion of the Northeast line 
that Amtrak owns is? Of course, we have an anomaly in 
Connecticut in which you operate a lot of trains that do very 
well, but you don't own the line. So can you talk a little bit 
about how you think about redundancy, especially with respect 
to electrical service on the lines that you do operate?
    Mr. Boardman. Well, we have an idea of a gateway program 
from the south into New York. The biggest bottleneck is Penn 
Station in New York. The biggest bottlenecks are Connecticut, 
New York, and New Jersey. So redundancy for us there is two new 
tunnels.
    Also--and you can go back to Superstorm Sandy just a year 
ago--Substation 41 failed. So we had a problem with electricity 
south of New York, not just north of New York. And, today--and 
I thought Joe really did a good job of this--talked about these 
micro grids, and that's being discussed in New Jersey right now 
for the improvements that are necessary for that kind of 
redundancy.
    There has to be some redundancy. But, as others have said, 
it can be expensive. There are techniques that maybe we can 
follow to keep the cost down. But one of the best things is to 
have a reliable system, a system that's kept up to a good 
standard.
    Senator Murphy. You talked a little bit about the 
importance of ultimately having multiyear funding. There's two 
problems. You're underfunded and you get money one year at a 
time. I think probably the highway folks would say that they 
still enjoy one of those problems, that they're underfunded 
even if they get the money at 2 years to 5 years at a clip.
    But can you just talk, with specificity, if you have it, as 
to what kind of decisions you could make if you had multiyear 
funding? What are you doing now that you shouldn't be doing 
simply because you've got to make decisions 12 months at a 
time?
    Mr. Boardman. I think that's a great question. And I 
brought this book for that purpose, and I'm sure Jim Redeker 
has got it with him as well. Every one of the projects and 
bridges and difficulties that we've identified is in here, and 
most of them are identified, Senator, as feasibility and 
conceptual engineering, and then preliminary engineering. And 
most of them aren't beyond that.
    They need to be in final design and construction. And with 
a plan for the future--I was a New York State Commissioner of 
Transportation for a few years, and what we found in New York 
with the highway program--and I learned this--is that when you 
have a program management, once you've started studying a 
project, you get it done. It may not be the exact year you want 
it done. It might be a couple of years later, because you've 
got environmental processes and so forth.
    But because you had the contract authority from Congress to 
get that money out of the trust fund, as you've talked about, 
Senator Blumenthal, we built it. That's what needs to happen 
for the railroad in the Northeast Corridor. We need to have 
contract authority and move these projects and stop dealing 
with it one year at a time.
    Senator Murphy. You talked about how the operating profit 
made on the Northeast line primarily through the Acela service 
offsets operating losses in other places. Can you just explain 
to me what prevents you from making a commitment that that 
money is spent back in Connecticut by essentially making a 
commitment through your capital dollars to increase commitments 
to the Northeast to effectively offset the fact that our 
operating money is offsetting losses in other places?
    Mr. Boardman. There are a couple of things. If we're going 
to use those dollars, we have to get approval to indebt 
ourselves. We just can't take the $380 million and put it into 
the infrastructure. It wouldn't be the right way to do it. We 
need to finance it over the life of the actual investment 
itself.
    That means we go to, usually, the RRIF program, for 
example, if we're going to buy new locomotives, which we've 
done--70 new electric locomotives for the Northeast Corridor. 
And we're looking right now at having an RFP out at the end of 
November for new high-speed trains with more seats than we 
currently have in order to increase the capacity. So those 
dollars have to be approved through the RRIF program through 
the USDOT.
    What we can do is really held in the hands of Congress. If 
Congress says, ``We don't want you to use those dollars for 
those purposes; instead, we need those revenues,'' and so they 
sweep out the revenue and they send it to a lower overall 
subsidy for us, we don't have control over that. The 
appropriators do.
    Senator Murphy. But you've got a capital account that comes 
on an annual basis that you have authority with which to 
allocate, correct?
    Mr. Boardman. Yes, and it only covers about half of our 
capital costs.
    Senator Murphy. Right. But I guess my question is why 
couldn't you just make a different allocation decision within 
that budget to make sure that the Northeast is offset for the 
operating revenue that comes off of this line?
    Mr. Boardman. Well, we think we ought to have more 
flexibility in that area, and we'd like to discuss that with 
you.
    Senator Murphy. And then, last, Mr. Boardman, we're 
discussing a new cost-sharing plan along the line in terms of 
who pitches in and how much money for the maintenance of the 
line. And some initial reports suggest that Connecticut is due 
some increased money from Amtrak in order to help us maintain 
our line. What is Amtrak's position on the NEC process right 
now that's taking a look at this issue?
    Mr. Boardman. I say this with a smile, Senator. We also 
look forward to the Shoreline East paying us more for its use 
of Amtrak's corridor. We agree this needs to get fixed. We are 
in total agreement with that. We've got it with New Jersey 
Transit. We've got it with Long Island Railroad. Everybody 
needs to be there.
    But if it just becomes robbing Peter to pay Paul, and we 
don't make the investments necessary that Joe talked about, 
we're not getting the growth that we really need to protect the 
economy of this nation.
    Senator Murphy. I got you. We sort of think that there's 
already a lot of robbing Peter to pay Paul, and we feel like 
we're more often than not Peter.
    Joe, you did a great job, so I don't have any questions for 
you.
    But I have one for John, my final one, which is this. You 
know, there might be an impression out there--I'm not 
suggesting on behalf of MTA or Con Ed, but maybe, amongst 
others as well--that rebates for lost days just doesn't need to 
be a priority because the people that use this line to get to 
and from New York can afford the loss, that this is just a 
bunch of people who are making a lot of money in New York who 
go back and forth, and so if they don't get rebates, who cares? 
Their money will come from someplace else.
    Can you tell us a little bit about who the people are that 
use this line? And I know that you will attempt to dispel the 
notion that this is just a bunch of people who are making a 
couple of hundred thousand dollars a year going back and forth 
to New York every day.
    Mr. Hartwell. There are a lot of people that think of 
Fairfield County as the ATM of the state, and I definitely 
object to that. If you stood on the platforms, as I've done, 
and talked to commuters, you'll see that, yes, there are some 
people who are making $200,000 or more riding the trains every 
day and paying very high taxes because of that.
    But you'll also find that there are single mothers, there 
are people who are unemployed and trying to find a job, there 
are students, there are--everybody is on the trains. And the 
people in Fairfield County--there are pockets of enormous 
wealth. That is obvious. There are also pockets of extreme 
poverty, and those people are on the trains, too.
    If you are on the train going to work, you're probably a 
taxpaying citizen, and you should get a fair deal. And a fair 
deal says if you don't get the service, you should get your 
money back. That seems, to me, so completely obvious. If you 
buy a plane ticket, and the plane doesn't fly because there's 
bad weather, you get your money back. So why not on the trains? 
It makes no sense to me.
    Some people have said, ``Look, you're getting a monthly 
deal here, so why should we give you any money back?'' But 
let's think about that for a second. If everybody bought a 
daily ticket, how much more transaction costs would there be 
for the railroad to actually sell those tickets? You couldn't 
possibly do it.
    So the fact that people are buying monthly tickets actually 
saves the railroad money, and that money, in some respects, is 
passed on to the customer. These are basic economic positions, 
and I do not understand how anyone could take the opposite side 
of that argument, except that, of course, it's going to cost 
somebody some money. But it shouldn't come out of the pockets 
of the people who have paid for a service and don't get it.
    Senator Murphy. Well said.
    Thank you very much, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Murphy.
    And I might just expand on your answer to say that the 
ridership is not only going into New York. It's also, within 
Connecticut, going both ways, from Stamford up to Bridgeport to 
New Haven.
    I was at two of the Fairfield stations this morning and saw 
ridership on both sides of the tracks, students going from 
Fairfield north or east, as well as commuters going into New 
York. So we're really talking about commuting both ways, and I 
think Mr. McGee would agree that the companies and employers 
that come to Connecticut in Fairfield County depend 
increasingly on commuters coming to them by rail both ways, 
from both parts of the state and even from New York.
    Now, increasingly, our economic vibrancy depends on people 
being able to access Fairfield County from New York by rail. Is 
that correct?
    Mr. McGee. Yes, Senator. It's changed, you know. The view 
that everyone on the train goes to Manhattan is not true 
anymore. More people come into Stamford on a daily basis than 
go to New York, and that shifted about probably 6 or 7 years 
ago. But I don't think people have caught up to the fact that 
that's really occurred. People use the train in Connecticut 
now.
    Senator Blumenthal. Mr. Boardman, let me just ask you and 
others a question. We've talked about redundancy in terms of 
micro grids. But what about fuel cells? Are they a promising 
source of potential power?
    Mr. Boardman. I don't believe--from what I've known about 
them in the past, unless there's something that's really 
upgraded, they're not going to be something we can use soon.
    Mr. McGee. Senator, if I could add, in a 2007 case, the 
Connecticut Academy of Science has looked at that issue about 
fuel cells on the rail line and concluded that, at that point, 
the technology wasn't there for it to be practical. Now, there 
has been a lot of improvement in fuel cells since that period, 
so it's probably worth looking at again. But when it was looked 
at in 2007, it was concluded it wasn't appropriate.
    Senator Blumenthal. Thank you.
    I want to thank each of you for your testimony. It has been 
very, very helpful and important to the work of this committee. 
And I want to thank our previous panel as well, and most 
especially Chairman Rockefeller for his permitting us to have 
this field hearing and for me to chair it, and for the 
excellent work of our Committee staff, again, and my staff.
    For anyone who has additional thoughts or submissions for 
the record, we're going to hold it open for 10 days. And with 
that, I'm going to adjourn the hearing.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
                            A P P E N D I X

      Borough of Naugatuck, Office of Mayor Robert A. Mezzo
                                    Naugatuck, CT, October 25, 2013
Senator Jay Rockefeller, Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Surface Transportation Committee,
Washington, DC.

RE: United States Senate Transportation Committee Hearings 
  Support for Waterbury--Bridgeport Metro-North Branch Line

Dear Senator Rockerfeller:

    Thank you for the opportunity to submit written testimony in 
support of improvements to the Waterbury--Bridgeport Metro-North Branch 
Rail Line (``Waterbury Line''). This section of transportation 
infrastructure is critical for expanded economic development in all the 
communities through which it passes.
    The Borough of Naugatuck, a community of approximately thirty two 
thousand (32,000) citizens located in southwest Connecticut, is 
currently entertaining development proposals for multiple, town-owned 
properties in its urban core. The Waterbury Line is a pivotal component 
of what we collectively envision as a smart-growth, transit oriented 
revitalization of downtown Naugatuck. Many of our citizens work in 
densely populated communities to our south, and rely on southbound 
transportation networks for travel to and from work.
    Currently the primary means of travel from the Naugatuck River 
Valley to Fairfield County and New York is Connecticut Route 8. 
Unfortunately congestion on this limited access highway is significant 
during morning and evening drive times as motorists attempt to link 
with the Merritt Parkway and Interstate 95. While each community from 
Waterbury south to Derby has a station along the Waterbury line, 
commuters are reluctant to use public transportation because of the 
limited and often poor rail service currently in place.
    The recent power outage along the main line, which is the subject 
of Monday's (10/28/2013) Transportation Committee hearings, undoubtedly 
created inconvenience and frustration on behalf of Metro-North 
commuters. Unfortunately this is something that is a continuous feeling 
shared by many regular Waterbury Line passengers. When there have been 
problems with rail cars on the main line, it has become common practice 
to move Waterbury Line diesel trains to the main line. This generally 
results in extended periods during which buses are substituted for 
trains along the Waterbury Line.
    Another major concern for Waterbury Line commuters is the frequency 
by which trains depart and return to stations along the Naugatuck River 
Valley corridor. A major obstacle to increasing trains on the Waterbury 
Line is that it is a single track which prevents multiple trains from 
traveling at different times. A recent Connecticut Department of 
Transportation study of the Waterbury Line suggested the installation 
of multiple side tracks at strategic locations along the rail line 
which would allow for trains to pass one another. Unfortunately limited 
resources combined with the Federal mandate to provide positive train 
control along the entire Waterbury Line have prevented any action on 
this recommendation.
    The limitations to service and frequency of disruption provide a 
serious inconvenience to those who rely on the Waterbury Line as their 
primary means of transportation. Equally concerning are all the 
countless other commuters who refuse to consider public transportation 
because of the inherent inconveniences imposed by current Waterbury 
Line service. Many of these Naugatuck River Valley commuters believe 
they have no other choice than to drive to and from their destinations 
south on the already congested network of state and interstate roads.
    Building a first class, convenient public transportation system for 
these United States is a big idea that requires commitment and vision 
from the Federal government. For generations the communities throughout 
the Naugatuck River Valley have been leaders and innovators during our 
Industrial Age. As we seek to revitalize the historic downtowns in each 
of our communities, we require a reliable and sustainable 
transportation system that will meet the needs of the modern economy. 
We strongly urge you and the honorable members of United States Senate 
Transportation Committee to support and fund improvements to the 
Waterbury Line. I would be pleased to further discuss this matter with 
you at your convenience.
            Sincerely,
                                           Robert A. Mezzo,
                                                             Mayor.
                                 ______
                                 
                                      The City of Waterbury
                                    Waterbury, CT, October 25, 2013
Senator Jay Rockefeller, Chairman,
U.S. Committee on Commerce, Science, and Transportation,
Surface Transportation Committee,
Washington, DC.

Dear Senator Rockefeller:

    Please accept this written correspondence as testimony for the 
Committee hearing being conducted in Bridgeport, Connecticut on October 
28, 2013.
    As Mayor of the City of Waterbury, I have been a staunch advocate 
for improvements to and investments in the State of Connecticut's rail 
system, including the Waterbury Branch of the New Haven Line. We all 
know that Connecticut's passenger rail system is a strategic link 
between the major northeast urban centers of New York City and Boston 
as well as a major component of the entire eastern rail corridor. In 
addition to the benefits of being in a strategic location, Connecticut 
is rich in natural and human resources that place us in the forefront 
of the national economy in terms of science and technology, aviation, 
manufacturing, education, and a variety of financial services. 
Capitalizing on these resources requires the development and upkeep of 
a rail system that allows us to offer an attractive business 
environment; high quality, efficient mobility options; and, a high 
quality of life. Improving the productivity of our rail transportation 
system is essential to the competitive advantage of Connecticut, its 
regions and urban centers, and in turn, the national economy.
    Waterbury is situated at the terminus of the Waterbury branch of 
the New Haven Line. Operations on the branch line are dependent upon 
and affected by the reliability of the main New Haven line. Any 
disruptions to electrical service on the New Haven line ultimately 
impact the cities and towns up and down the Naugatuck River Valley. 
Such disruptions include power outages, whether manmade or natural, 
accidents or delays. With the New Haven line being over 100 years in 
age, such disruptions are certainly not rare. When the New Haven line 
``goes down,'' diesel locomotives are pulled off the Waterbury Branch 
line, causing disruptions for passengers on the Branch line, whether or 
not they plan to connect to the New Haven Line.
    When our diesel trains are redeployed, the result is stranded 
commuters who have to wait for CTDOT to implement a bus system in place 
of the suspended rail. The bus system is then fraught with its own 
delays and inefficiencies as drivers try to familiarize themselves with 
the route and connections are missed.
    It is crucial that the Federal Government take a hard look at rail 
conditions in the State of Connecticut and support the upgrades and 
major investments that will result in a more resilient public rail 
system that can meet the challenges of the 21st century. Such 
investments should include improvements to the New Haven main line, as 
well as significant upgrades to the Waterbury Branch.
    The Waterbury Branch line is in need of passing sidings, full 
signalization and a transfer station at Devon Wye so that more than one 
train can operate on the line. Without these improvements, our Valley 
economy is severely hamstrung and mobility options for our residents 
are limited. The City of Waterbury and the State of Connecticut are 
investing in improvements to Waterbury's Train Station, with the goal 
of encouraging transit-oriented development. We are redeveloping 
brownfields, planning and designing sustainable riverfront development 
and reusing our historic downtown buildings as we build a new City 
economy. Efficient and reliable rail passenger service on the New Haven 
Line, and specifically, the Waterbury Branch line, is at the heart of 
our economic development strategies.
    As Mayor of the City of Waterbury, I ask the Committee to make the 
needed investments in the New Haven line and the Waterbury Branch that 
will ensure their reliability and efficiency so that Connecticut can 
offer viable transportation options to its businesses and residents 
that will drive the growth of our local, state and national economies.
            Yours truly,
                                           Neil M. O'Leary,
                                                             Mayor.
                                 ______
                                 
           Council of Governments, Central Naugatuck Valley
                                    Waterbury, CT, October 25, 2013

Senator Jay Rockefeller, Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Surface Transportation Committee,
Washington, DC.

Dear Senator Rockefeller:

    The power outage along the New Haven Line, which stranded over a 
hundred thousand commuters and tens of thousands of Amtrak passengers, 
highlights the fragile nature of our aging passenger rail network in 
Connecticut. Along with the recent storms and accidents of the last two 
years, it is clear that more needs to be done to ensure the resiliency 
of the passenger rail network upon which so many people and communities 
depend. We appreciate your committee's interest in learning about this 
issue and ask for your support of this essential transportation 
facility.
    The future economic development and vitality of our communities is 
directly linked to dependable, convenient, and regular rail service. 
Greater investment in the rail line is essential to keep the line in a 
good state of repair, grow ridership, and minimize the potential for 
accidents, mistakes, and storm damage. Investments in the New Haven 
Line, and its branches, immediately benefit millions of people, 
reducing commute times and traffic congestion, increasing opportunities 
for economic development and activity, and support the redevelopment of 
the historic, walkable centers of our communities.
    Disruptions on the New Haven Line ripple throughout the entire 
Metro-North system. When the power is cut on the main line, the diesel 
train sets that serve the Naugatuck Valley's Waterbury Branch are 
redeployed to the main New Haven Line, leaving our passengers stranded 
until busing can be started. Replacement buses are less dependable and 
deter reliance on the Waterbury Branch. Such disruptions in service 
hinder our communities' revitalization efforts, which are based around 
the branch line.
    Our municipalities are making significant efforts to revitalize 
their downtowns and economies by investments in their train stations 
and support for transit-oriented development. Federal support, along 
with local, state, and private investment, is essential to making these 
projects work. We are hopeful that you will recognize the opportunities 
along the Waterbury Branch and support our efforts to improve it.
    Thank you for your interest and giving us this opportunity.
            Sincerely,
                                      Samuel S. Gold, AICP,
                                         Acting Executive Director.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                             Howard Permut
    Question 1. What levels of redundancy do you have for electricity 
along the New Haven line in CT? How is that different from what 
currently exists in NY where Con Ed operates?
    Answer. The general function of a substation is to take power from 
the utility and make it useable for railroad operations. Every 
substation in New York and Connecticut has full redundancy for normal 
service operations. This means that substations are designed so that 
the loss of a major electrical component (e.g., feeder, transformer) at 
the substation will not affect electric train service and full 
operations can continue. This function is called ``second order 
contingency'' or ``N+1'' design.
    If a major component is taken offline for either short or long term 
maintenance, this redundancy can become compromised, as was seen last 
fall in Mt. Vernon.
    Currently, the catenary system on the New Haven Line, east of the 
state border, has three supplying substations, Cos Cob, Sasco Creek, 
and Devon. If the Sasco Creek substation is offline completely, the 
adjacent substations are able to bridge the gap so that train service 
is not affected. Metro-North and Connecticut Department of 
Transportation (ConnDOT) are working to bring this type of additional 
power capability to the Cos Cob and Devon substations. Construction of 
a new substation in the New Haven Yard at the far east end of Metro-
North territory will allow service to continue to operate if the Devon 
substation is offline, and the fortification of the electric tie system 
in New York described below will provide this capability if the Cos Cob 
substation is offline.
    The New Haven Yard substation and the fortification of the electric 
tie system are scheduled to be completed the first quarter of 2014.
    Regarding operations in New York State, Con Ed is not the only 
power supplier. NYS Electric and Gas also provides power in portions of 
the State.
    All New York substations--no matter which utility supplies the 
power--are designed and built to the same type of second order 
contingency or N+1 design described above, so train service is not 
impacted due to loss of a major electrical component in the substation. 
All 54 DC substations on Metro-North's Harlem and Hudson Lines, as well 
as the Mt. Vernon substation on the New Haven Line are designed and 
built to this standard. As noted above, second order contingency allows 
substations to continue to operate if a major component within the 
substation is offline.

    Question 2. How will your contingency plans change in the future as 
a result of this incident?
    Answer. Metro-North is making a number of changes to its project 
planning and contingency planning processes as a result of the Mt. 
Vernon incident. New processes and procedures have been used to plan 
the substation improvements currently underway at Cos Cob. Prior to 
beginning this project, Metro-North, ConnDOT and Connecticut Light & 
Power (CL&P) met, developed and jointly agreed to: project management 
plans for the actual transformer replacement; a power contingency plan 
that provides a primary and back up source; contingency plans for rail 
and rail/bus service in the event of a disruption; a plan for, 
communications with customers and other stakeholders. This same process 
will be used before any future major substation maintenance projects.
    In addition, Metro-North is working to build redundancy at all 
substation locations to cover periods when maintenance is underway.
    As noted above, in the remaining CT territory east of Devon, 
construction of a new supply substation in New Haven Yard will provide 
redundancy to the existing Devon supply substation.
    In New York, Metro-North will fortify an existing emergency 
electrical tie system, to allow for a contingency power supply in case 
the utility serving the area is interrupted. While Con Edison and CL&P 
systems cannot be tied together, this system will provide redundancy 
for our Cos Cob substation, where power is provided by CT Light and 
Power, and our Mt Vernon substation, where Con Ed provides power. Once 
complete, this tie will allow the railroad to continue to operate train 
service should the Cos Cob or Mt. Vernon substation fail, although 
trains would operate more slowly and with delays.
    Although Metro-North remains in discussion with Con Ed to build an 
additional supply substation, identifying a location is challenging 
given the availability of utility transmission voltage sources near the 
right of way.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Christopher Murphy to 
                             Howard Permut
    Question. While the effort to install full electrical redundancy 
along the Connecticut portion of line is already underway, any 
additional light that can be shed on the parallel plan for the New York 
track segments would be much appreciated. What is the menu of options 
being considered? What are the accompanying installation timelines for 
each potential option? When will a formal decision be made on the final 
redundancy plan?
    Answer. Please see the answer provided in question 2 above for 
discussion of measures in New York.
    The fortified emergency tie between the New York and Connecticut 
sections is anticipated to be complete in March 2014. The Mt. Vernon 
substation is scheduled for completion summer 2015.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                               Craig Ivey
    Question 1. Are you aware of CL&P's plan to get electricity from 
nearby substations to power CT track in times of need? Do you plan to 
build similar redundancy?
    Answer. James Redeker, Commissioner of the Connecticut Department 
of Transportation, described redundancy in the power supply to the New 
Haven line along the Connecticut portion of the route in the opening 
statement of his testimony at the October 28, 2013 hearing in 
Bridgeport. He noted two ongoing projects intended to enhance the 
redundancy by the first quarter of next year. Mr. Redeker's testimony 
was corroborated by Howard Permut, President of the Metro-North 
Railroad, in his response to a question asked during the hearing. This 
redundancy is achieved through Metro-North's design and investment 
along the Connecticut portion of the route, in collaboration with the 
Connecticut Department of Transportation. It's our understanding 
through conversations in industry forums that CL&P supports the ongoing 
projects as a contractor to Metro-North, but has not made any changes 
in their own electric system to provide redundancy to the New Haven 
line.
    In the aftermath of the September 25 event, Metro-North has been 
actively seeking to establish an additional and redundant supply for 
the portion of track in New York State from Harrison to Pelham, 
initially on a temporary or interim basis to allow the upgrade project 
at their Mount Vernon substation to move forward without delay, and 
then on a permanent basis. Con Edison has assembled a team of 
engineers, operators, planners, and managers to fully support Metro-
North's efforts along these lines. The New York Power Authority (NYPA) 
is also supporting this effort. All three entities--Metro-North, Con 
Edison, and NYPA--have met on multiple occasions, and will continue to 
meet, to achieve the goal of establishing an additional and redundant 
supply as quickly and effectively as possible.

    Question 2. Can you provide my office with more information on the 
amount of money that ConEd spends on repair, maintenance and upgrades 
for the lines that supply Metro-North? Does ConEd have a capital 
improvement plan for such supply lines? Can you please provide it to my 
office?
    Answer. The two 138kV feeders that supply electric service to the 
Metro-North Mt. Vernon substation are 38W09 and 38W10. Each underground 
feeder is 3.65 miles long and has 14 manholes which contain splices. 
Each feeder consists of three cables housed in a steel carrier pipe 
filled with a dielectric fluid which cools and electrically insulates 
the cables. The steel carrier pipe is protected from corrosion with a 
cathodic protection system. The feeders have circuit breakers, switches 
and associated protective relay equipment at the substations where they 
originate and terminate. Except for the current failure, these two 
supply feeders have never experienced any cable faults since they were 
energized.
    Con Edison regularly inspects, tests, and maintains feeders 38W09 
and 38W10 and their associated equipment. From 2009 through 2013 (year 
to date) Con Edison spent $271,782 to maintain the feeders and their 
associated equipment.
    In 2013, Con Edison invested $2.4M in capital improvements to 
upgrade a circuit breaker, switches, and protective relays associated 
with feeder 38W10. The Company has plans to invest an additional $2.4M 
in capital improvements to upgrade substation equipment associated with 
feeders 38W09 and 38W10.

                                  <all>

</pre></body></html>
